N o. 2 0 - _ _ _ _ _ _ _

I n t he S u pre me C o urt of t he U nite d St ate s
__________

JO

H N

A

L LI S O N

H

U C K A B A Y

,P

E TI TI O N E R

,

v.
S

ID A H
__________

T AT E OF

O

O n P etiti o n f o r a W rit of C e rti o r a ri t o t h e
S u p r e m e C o u rt of t h e St at e of I d a h o
__________
P E TI TI O N F O R A W RI T O F C E R TI O R A RI
__________
G E N E C. S C H A E R R
C o u n s el of R e c o r d
H. C H R I S T O P H E R B A R T O L O M U C C I
H A N N A H S MI T H
S C O T T D. G O O D W I N
R I D D HI D A S G U P T A
J O S H U A J. P R I N C E
SC H A E R R | JAFF E LLP
1 7 1 7 K St r e et N W, S t. 9 0 0
W a s hi n gt o n, D C 2 0 0 0 6
( 2 0 2) 7 8 7-1 0 6 0
g s c h a e r r @ s c h a e r r -j aff e. c o m
C o u n s el f o r P etiti o n e r

Q U E S TI O N S P R E S E N T E D
Wit h o ut a n y r e q ui r e m e nt o r p r o of of s ci e nt e r,
P etiti o n e r w a s c o n vi ct e d of u nl a wf ul p o s s e s si o n of a
m o o s e c a r c a s s o ut of s e a s o n, a f el o n y u n d e r I d a h o l a w.
Y et t h e st at e n e v e r s h o w e d t h at h e k n ew t h at t h e
a ni m al, w hi c h h e h a d n ot kill e d, h a d b e e n s ot o ut of
s e a s o n o r t h at t h e p e r s o n c oll e cti n g t h e c a r c a s s l a c k e d
a t a g a ut h o ri zi n g p o s s e s si o n . T h u s t h e st at e f ail e d t o
s h o w t h at h e k n e w h e u nl a wf ull y p o s s e s s e d t h e
c a r c a s s . H e r ai s e d a n d e xt e n si v el y b ri ef e d a 1 4t h
A m e n d m e nt d u e p r o c e s s c h all e n g e t o t h e l a c k of a
r e q ui r e m e nt a n d p r o of of s ci e nt e r b ef o r e t h e I d a h o
S u p r e m e C o u rt, b ut t h at c o u rt r ef u s e d t o r ul e o n t h e
i s s u e b y lit e r all y i g n o ri n g fi v e p a g e s of hi s b ri ef a n d
cl ai mi n g t h e i s s u e w a s n ot s uffi ci e ntl y r ai s e d. T hi s
w h oll y i n a d e q u at e g r o u n d f o r r ef u si n g t o r e a c h a
c o n stit uti o n al i s s u e i s it s elf a d u e p r o c e s s vi ol ati o n
u n d e r t h e 1 4t h A m e n d m e nt. T h e q u e sti o n s p r e s e nt e d
b y t hi s p etiti o n a r e:
1. W h et h e r t h e 1 4t h A m e n d m e nt’ s D u e P r o c e s s
Cl a u s e r e q ui r e s a s ci e nt e r el e m e nt f o r f el o ni e s t h at
a r e n ot p u bli c w elf a r e off e n s e s a n d c a r r y s e ri o u s
p e n alti e s , a s at l e a st t h r e e f e d e r al ci r c uit s a n d m a n y
st at e s u p r e m e c o u rt s h a v e r e c o g ni z e d , o r w h et h e r
r e q ui ri n g t h e i n cl u si o n of s ci e nt e r i s m e r el y a r ul e of
c o n st r u cti o n, a s t h r e e f e d e r al ci r c uit c o u rt s a n d o n e
st at e s u p r e m e c o u rt h a v e h el d ?
2.
W h et h e r
a
c ri mi n al
d ef e n d a nt
is
u n c o n stit uti o n all y d e ni e d t h e o p p o rt u nit y t o b e h e a r d
u n d e r t h e 1 4t h A m e n d m e nt’ s D u e P r o c e s s Cl a u s e
w h e n a c o u rt r ef u s e s t o r e a c h a n a r g u m e nt h e h a s
e xt e n si v el y b ri ef e d b e c a u s e t h e c o u rt e r r o n e o u sl y
c o n cl u d e s h e h a s n ot f ai rl y r ai s e d t h e a r g u m e nt?

ii
P A R TI E S T O T H E P R O C E E DI N G
P etiti o n e r J o h n Alli s o n H u c k a b a y w a s D ef e n d a nt A p p ell a nt i n t h e S u p r e m e C o u rt of I d a h o i n N o. 4 8 1 0 9 .
R e s p o n d e nt
St at e of I d a h o
w as
Pl ai ntiff R e s p o n d e nt i n t h e S u p r e m e C o u rt of I d a h o i n N o.
48109.

iii
T A B L E O F C O N T E N TS
Q U E S T I O N S P R E S E N T E D ........................................i
T A B L E O F C O N T E N T S ........................................... iii
T A B L E O F A U T H O R I T I E S ....................................... vi
I N T R O D U C T I O N ........................................................ 1
O P I N I O N S B E L O W .................................................... 2
J U R I S D I C T I O N .......................................................... 2
R E L E V A N T C O N S TI T U TI O N A L & S T A T U T O R Y
P R O V I S I O N S .............................................................. 2
S T A T E M E N T .............................................................. 3
A. L e g al F r a m e w o r k .............................................. 3
B. F a ct u al B a c k g r o u n d ......................................... 4
C. P r o c e d u r al Hi st o r y ............................................ 6
R E A S O N S F O R G R A N T I N G T H E P E T I T I O N .......... 9
I. L o w e r C o u rt s a r e H o p el e s sl y Di vi d e d O v e r
W h et h e r t h e D u e P r o c e s s Cl a u s e R e q ui r e s a
S ci e nt e r El e m e nt f o r F el o ni e s wit h S e v e r e
P e n alti e s o r W h et h e r t h e I n cl u si o n of S u c h a n
El e m e nt i s M e r el y a R ul e of C o n st r u cti o n . ........... 9
A. W h e n R e a di n g a S ci e nt e r R e q ui r e m e nt i nt o
F e d e r al C ri mi n al St at ut e s, t hi s C o u rt h a s
Hi nt e d at B ut N e v e r Cl a rifi e d W h et h e r T h at
R e a di n g i s R e q ui r e d b y D u e P r o c e s s. ............... 9
B. At L e a st T h r e e F e d e r al Ci r c uit s a n d M a n y
St at e S u p r e m e C o u rt s R e c o g ni z e t h at t h e D u e
P r o c e s s Cl a u s e s M a n d at e S o m e F o r m of

iv
S ci e nt e r R e q ui r e m e nt f o r C ri m e s wit h S e ri o u s
P e n alti e s. ......................................................... 1 4
C. At L e a st T h r e e Ci r c uit s a n d O n e St at e
S u p r e m e C o u rt I n st e a d T r e at t h e I n cl u si o n of
a S ci e nt e r El e m e nt a s a N o n -c o n stit uti o n al
R ul e of C o n st r u cti o n O nl y. ............................. 1 8
I I. T h e L o w e r C o u rt’ s R ef u s al t o A d d r e s s P etiti o n e r’ s
A r g u m e nt O n t h e Fi r st Q u e sti o n I n d e p e n d e ntl y
Vi ol at e d t h e D u e P r o c e s s Cl a u s e a n d Li k e wi s e
W a r r a nt s R e vi e w. ................................................. 2 0
A. T hi s C o u rt’ s P r e c e d e nt E st a bli s h e s t h at
P e r s o n s D e p ri v e d of a Ri g ht b y t h e St at e M u st
b e Gi v e n t h e O p p o rt u nit y t o b e H e a r d. ......... 2 1
I I I. T h e Q u e sti o n s P r e s e nt e d A r e of N ati o n wi d e a n d
G r o wi n g I m p o rt a n c e. ........................................... 2 8
I V. T hi s C a s e P r e s e nt s a F a ct u all y Cl e a n V e hi cl e t o
R e s ol v e t h e s e I m p o rt a nt I s s u e s. .......................... 3 2
C O N C L U S I O N .......................................................... 3 4

v
A P P E N DI X
S u b stit ut e O pi ni o n of t h e S u p r e m e C o u rt
of t h e St at e of I d a h o, St at e of I d a h o v. J o h n
Alli s o n H u c k a b a y , N o. 4 8 1 0 9 ( F e b. 5 ,
2021)… … … … … … … … … … … … … … … … … … … 1a
O pi ni o n
St at e of
Alli s o n
2 0 2 0) …

of t h e C o u rt of
I d a h o, St at e of
H u c k a b a y , N o.
… … … … … … … …

A p p e al s of t h e
I d a h o v. J o h n
4 6 0 8 5 ( F e b. 7,
… … … … … … … … … .. 1 7 a

R el e v a nt P o rti o n s of A p p ell a nt’ s O p e ni n g
B ri ef, St at e of I d a h o v. J o h n Alli s o n
H u c k a b a y, S u p r e m e C o u rt of t h e St at e of
I d a h o, S u p r e m e C o u rt D o c k et N o. 4 6 0 8 5 2 0 1 8, A p r. 2 5, 2 0 1 9, S e cti o n I I I( B)( 3),
p p. c o v e r, 2 0 -3 2 , 4 4 … … … … … … … … … … … … 2 9 a

vi
T A B L E O F A U T H O RI TI E S
C as es
A ri z o n a v. F ul mi n a nt e , 4 9 9 U. S. 2 7 9 ( 1 9 9 1) ............ 2 6
A r m st r o n g v. M a n z o , 3 8 0 U. S. 5 4 5 ( 1 9 6 5) ................ 2 3
B al d wi n v. H al e , 6 8 U. S. ( 1 W all.) 2 2 3 ( 1 8 6 3).... 2 0, 2 1
B o d di e v. C o n n. , 4 0 1 U. S. 3 7 1 ( 1 9 7 1) ....................... 2 4
B ri n k e r h off -F a ri s T r u st & S a vi n g s C o. v. Hill,
2 8 1 U. S. 6 7 3 ( 1 9 3 0) ................................................ 3 3
C a p e rt o n v. A. T. M a s s e y C o al C o., I n c.,
5 5 6 U. S. 8 6 8 ( 2 0 0 9) ................................................ 2 7
Cit y of L o s A n g el e s, C alif. v. D a vi d ,
5 3 8 U. S. 7 1 5 ( 2 0 0 3) ................................................ 2 4
C o m. v. P a r m a r , 7 1 0 A. 2 d 1 0 8 3 ( P a. 1 9 9 8) .............. 1 9
Ct y. of S a c r a m e nt o, C alif. v. L e wi s ,
5 2 3 U. S. 8 3 3 ( 1 9 9 8) ................................................ 2 4
Di c k e r s o n v. U nit e d St at e s , 5 3 0 U. S. 4 4 3 ( 2 0 0 0) ...... 2 5
D u s e n b e r y v. U nit e d St at e s , 5 3 4 U. S. 1 6 1 ( 2 0 0 2) ..... 2 4
F o u c h a v. L o ui si a n a , 5 0 4 U. S. 7 1 ( 1 9 9 2) .................. 2 7
F u e nt e s v. S h e vi n , 4 0 7 U. S. 6 7 ( 1 9 7 2) ............ 4, 2 1, 2 2
G r a n ni s v. O r d e a n , 2 3 4 U. S. 3 8 5 ( 1 9 1 4) ......... 4, 2 0, 2 1
H a m di v. R u m sf el d , 5 4 2 U. S. 5 0 7 ( 2 0 0 4) ................. 2 2
H ol d ri d g e v. U nit e d St at e s , 2 8 2 F. 2 d 3 0 2
( 8t h Ci r. 1 9 6 0) ...................................... 1 4, 1 5, 1 7, 1 9
J eff e r s o n B r a n c h B a n k v. S k ell y ,
6 6 U. S. 4 3 6 ( 1 8 6 1) .................................................. 3 2

vii
J oi nt A nti -F a s ci st R ef u g e e C o m mitt e e v.
M c G r at h , 3 4 1 U. S. 1 2 3 ( 1 9 5 1) ............................... 2 2
J o n e s v. U nit e d St at e s , 4 6 3 U. S. 3 5 4 ( 1 9 8 3) ............. 2 7
K a n s a s v. H e n d ri c k s, 5 2 1 U. S. 3 4 6 ( 1 9 9 7) .................. 4
K e n n e d y v. M e n d o z a -M a rti n e z ,
3 7 2 U. S. 1 4 4 ( 1 9 6 3) .................................................. 4
L a m b e rt v. C alif o r ni a , 3 5 5 U. S. 2 2 5 ( 1 9 5 7)...... p a s si m
L e e v. K e m n a, 5 3 4 U. S. 3 6 2 ( 2 0 0 2) ........................... 3 3
Li p a r ot a v. U nit e d St at e s , 4 7 1 U. S. 4 1 9 ( 1 9 8 5) .......... 8
M. L. B. v. S. L. J. , 5 1 9 U. S. 1 0 2 ( 1 9 9 6) ....................... 2 4
M at h e w s v. El d ri d g e , 4 2 4 U. S. 3 1 9 ( 1 9 7 6) ......... 2 1, 2 6
Mi c hi g a n v. L o n g , 4 6 3 U. S. 1 0 3 2 ( 1 9 8 3) ..................... 4
M o ri s s ett e v. U nit e d St at e s ,
3 4 2 U. S. 2 4 6 ( 1 9 5 2) ........................................ p a s si m
M ull a n e v. C e nt r al H a n o v e r B a n k & T r u st C o. ,
3 3 9 U. S. 3 0 6 ( 1 9 5 0) ................................................ 2 2
N el s o n v. A d a m s U S A, I n c ., 5 2 9 U. S. 4 6 0 ( 2 0 0 0) ..... 2 5
P a r d o v. St at e , 1 6 0 A. 3 d 1 1 3 6 ( D el. 2 0 1 7) ................ 1 6
R a d i o St ati o n W O W, I n c. v. J o h n s o n,
3 2 6 U. S. 1 2 0 ( 1 9 4 5) ................................................ 3 3
R e e c e v. G e o r gi a, 3 5 0 U. S. 8 5 ( 1 9 5 5) ......................... 3 3
R e h aif v. U nit e d St at e s , 1 3 9 S. Ct. 2 1 9 1 ( 2 0 1 9) ... 3, 1 3
S h e vli n -C a r p e nt e r C o. v. St at e of Mi n n. ,
2 1 8 U. S. 5 7 ( 1 9 1 0) ................................................ 3, 9
St a pl e s v. U nit e d St at e s , 5 1 1 U. S. 6 0 0 ( 1 9 9 4).… 1 1, 1 9
St at e v. Gi o r g etti , 8 6 8 S o. 2 d 5 1 2 ( Fl a. 20 0 4) ............ 1 6

viii
St at e v. P e ri n a , 8 0 4 N. W. 2 d 1 6 4 ( N e b. 2 0 1 1) ........... 1 8
St at e v. Ri c e , 6 2 6 P. 2 d 1 0 4 ( Al a s k a 1 9 8 1) ................ 1 6
St at e v. St e p ni e w s ki , 3 1 4 N. W. 2 d 9 8 ( Wi s. 1 9 8 2) ..... 1 6
St at e v. St o n e , 4 6 7 N. W. 2 d 9 0 5 ( S. D. 1 9 9 1).............. 1 6
St e p ni e w s ki v. G a g n o n , 7 3 2 F. 2 d 5 6 7
( 7t h Ci r. 1 9 8 4) ........................................................ 1 6
T e n n e s s e e v. L a n e , 5 4 1 U. S. 5 0 9 ( 2 0 0 4) ................ 4, 2 4
U nit e d St at e s v. E n gl e r , 8 0 6 F. 2 d 4 2 5
( 3 d Ci r. 1 9 8 6) .......................................................... 1 3
U nit e d St at e s v. Fi g u e r o a , 1 6 5 F. 3 d 1 1 1
( 2 d Ci r. 1 9 9 8) .......................................................... 1 9
U nit e d St at e s v. F ol e y , 5 9 8 F. 2 d 1 3 2 3
( 4t h Ci r. 1 9 7 9) .................................................. 1 5, 1 8
U nit e d St at e s v. G a r r ett , 9 8 4 F. 2 d 1 4 0 2
( 5t h Ci r. 1 9 9 3) ........................................................ 1 6
U nit e d St at e s v. G o n z al e z -L o p e z ,
5 4 8 U. S. 1 4 0 ( 2 0 0 6) ................................................ 2 6
U nit e d St at e s v. I nt’l Mi n s. & C h e m. C o r p. ,
4 0 2 U. S. 5 5 8 ( 1 9 7 1) .......................................... 1 2, 1 3
U nit e d St at e s v. N g u y e n , 7 3 F. 3 d 8 8 7
( 9t h Ci r. 1 9 9 5) ........................................................ 1 9
U nit e d St at e s v. U. S. G y p s u m C o. ,
4 3 8 U. S. 4 2 2 ( 1 9 7 8) ................................................ 1 3
U nit e d St at e s v. Willi a m s , 8 7 2 F. 2 d 7 7 3
( 6t h Ci r. 1 9 8 9) ........................................................ 1 7
U nit e d St at e s v. W ulff , 7 5 8 F. 2 d 1 1 2 1
( 6t h Ci r. 1 9 8 5) ........................................................ 1 7

ix
U nit e d St at e s v. X -Cit e m e nt Vi d e o, I n c. ,
5 1 3 U. S. 6 4 ( 1 9 9 4) .................................................. 1 7
W a r v. B d. of C o m mi s si o n e r s of L o v e Ct y.,
O kl a h o m a, 2 5 3 U. S. 1 7 ( 1 9 2 0) ............................... 3 3
Wil ki n s o n v. A u sti n , 5 4 5 U. S. 2 0 9 ( 2 0 0 5) ................. 2 4
St at ut e s
I d a h o C o d e § 1 8 -1 1 2 .................................................... 7
I d a h o C o d e § 3 6 -1 4 0 1 ............................................ 3, 2 0
I d a h o C o d e § 1 8 -1 1 4 .................................................... 8
O t h e r A u t h o ri ti e s
2 P oll o c k & M aitl a n d, Hi st o r y of E n gli s h L a w ......... 1 1
B ri a n W. W al s h a n d Tiff a n y M. J o sl y n, Wit h o ut I nt e nt:
H o w C o n g r e s s I s E r o di n g t h e C ri mi n al I nt e nt
R e q ui r e m e nt i n F e d e r al L a w , T h e H e rit a g e F o u n d.
& N at’l A s s’ n of C ri m. D ef. L a w y e r s ( 2 0 1 0),
htt p s://ti n y u rl. c o m/ 5f r b 6 5 m z ........................... 2 9, 3 1
D a vi d A s h b y, I d a h o M a n t o S e r v e M o nt h i n j ail I n
M o o s e P o a c hi n g C a s e , I d a h o St. J. ( M a y 1 8, 2 0 1 8),
htt p s://ti n y u rl. c o m/ 5 3 z b p w m h ................................. 7
D e vi n
W e e k s, Ki n d n e s s
Wi n s t h e D a y , C o e u r
d’ Al e n e/ P o st
F all s
P r e s s ( N o v.
4,
2 0 2 0),
htt p s://ti n y u rl. c o m/ 2 s 9 h u r d b ................................... 7
F r a n ci s S a y r e, P u bli c W elf a r e Off e n s e s , 3 3 C ol u m. L.
R e v. 5 5 ( 1 9 3 3) ......................................................... 2 8
G a r y Fi el d s a n d J o h n R. E m s h will e r, A s F e d e r al
C ri m e Li st G r o w s, T h r e s h ol d of G uilt D e cli n e s , W all
St. J. ( S e pt. 2 7, 2 0 1 1), htt p s://ti n y u rl. c o m/ 2 s k c r e y s
................................................................................ 3 0

x
G a r y Fi el d s a n d J o h n R. E m s h will e r, M a n y F ail e d
Eff o rt s t o C o u nt N ati o n’ s F e d e r al C ri mi n al L a w s ,
T he
W all
St r e et
J o u r n al ( J ul
2 3,
2 0 1 1),
htt p s://ti n y u rl. c o m/ 2j b c e d p c .................................. 2 9
H e n r y F ri e n dl y, S o m e Ki n d of H e a ri n g , 1 2 3 U. P a. L.
R e v. 1 2 6 7 ( 1 9 7 5) ..................................................... 2 3
J a mes
R.
C o p el a n d
&
R af a el
A.
M a n g u al,
O v e r c ri mi n ali zi n g A m e ri c a , M a n h att a n I n st. ( A u g.
2 0 1 8), htt p s://ti n y u rl. c o m/ 4 a x zj 5 6 m ................ 3 0, 3 1
J a m e s R. C o p el a n d, I s a a c G o r o d et s ki & Mi c h a el J.
R eit z, O v e r c ri mi n ali zi n g t h e
W ol v e ri n e St at e,
M a c ki n a c Ct r. F o r P u b. P oli c y a n d t h e M a n h att a n
I n st.
F or
P u b.
P oli c y
(O ct .
2 0 1 4),
htt p s://ti n y u rl. c o m/ c d r z x z u c .................................. 3 0
J o h n B a k e r, R e vi siti n g t h e E x pl o si v e G r o wt h of
F e d e r al C ri m e s , T h e H e rit a g e F o u n d. ( J u n e 1 6,
2 0 0 8),
htt p s://ti n y u rl. c o m/ H e rit a g e C ri m e R e p o rt ............. 3 0
J o h n S. B a k e r, J r., M e n s R e a a n d St at e C ri m e s , T h e
F e d e r ali st
S o ci et y
( S e pt.
4,
2 0 1 2),
htt p s://ti n y u rl. c o m/ 3 4 a k b y e b ..................... 2 8, 3 0, 3 1
J o h n Vill a s e n o r, O v e r -c ri mi n ali z ati o n a n d M e n s R e a
R ef o r m: A P ri m e r , B r o o ki n g s I n stit uti o n ( D e c. 2 2,
2 0 1 5), htt p s://ti n y u rl. c o m/ m m wt p k z 2 ................... 2 9
S u p. Ct. R. 1 0( c) ..................................................... 9, 2 0
T h e A d e q u a c y of C ri mi n al I nt e nt St a n d a r d s i n F e d e r al
P r o s e c uti o n s B ef o r e t h e S. C o m m. o n t h e J u di ci a r y,
1 1 4 t h C o n g. 1 ( 2 0 1 6) ............................................... 3 1
T r e a ti s e s

xi
4

W. Bl a c k st o n e, C o m m e nt a ri e s o n t h e L a w s of
E n gl a n d ( 1 7 6 9) ......................................................... 3
C o n s ti t u ti o n al P r o vi si o n s

U. S. C o n st., a m e n d . X I V, § 1 ............................. p a s si m

I N T R O D U C TI O N
P etiti o n e r J o h n H u c k a b a y w a s c o n vi ct e d of t h e
f el o n y of u nl a wf ul p o s s e s si o n of a m o o s e c a r c a s s u n d e r
a n I d a h o st at ut e . Gi v e n t h at P etiti o n e r ’s a s s o ci at e —
i n w h o s e t r u c k t h e d e a d m o o s e w a s fi r st s p ott e d b y
wit n e s s e s, a n d i n w h o s e m e at l o c k e r t h e c a r c a s s w a s
l at e r r e c o v e r e d b y a ut h o riti e s— cl ai m e d t o h a v e a v ali d
t a g, P etiti o n e r l a c k e d k n o wl e d g e t h at h e w a s
u nl a wf ull y p o s s e s si n g a m o o s e .
Vi ol ati n g t h e st at ut e i s p u ni s h a bl e b y u p t o fi v e
y e a r s i n p ri s o n a n d a $ 5 0, 0 0 0 fi n e. A n d , of c o u r s e, a
f el o n y c o n vi cti o n oft e n c a r ri e s wit h it ot h e r s e ri o u s
l e g al di s a biliti e s, s u c h a s t h e d e ni al of t h e ri g ht t o v ot e
a n d, i n s o m e ci r c u m st a n c e s, t r a v el. D e s pit e t h e
s e ri o u s p e n alti e s att a c h e d t o t hi s f el o n y, t h e c ri mi n al
st at ut e u n d e r
w hi c h P etiti o n e r w a s c o n vi ct e d
c o nt ai n e d n o s ci e nt e r r e q ui r e m e nt — i n c o nfli ct wit h
f u n d a m e nt al p ri n ci pl e s of c ri mi n al l a w t h at g o b a c k
c e nt u ri e s i n A n gl o -A m e ri c a n j u ri s p r u d e n c e.
T o a d d i nj u r y t o i nj u r y, w h e n P etiti o n e r r ai s e d t hi s
d u e p r o c e s s p r o bl e m b ef o r e t h e S u p r e m e C o u rt of
I d a h o — d e v oti n g m o r e t h a n fi v e p r e ci o u s p a g e s t o t h at
p oi nt i n t h e li mit e d s p a c e of hi s o p e ni n g b ri ef— t h e
c o u rt r ef u s e d t o r e a c h t h e i s s u e, e r r o n e o u sl y cl ai mi n g
h e h a d m e r el y d e v ot e d a si n gl e s e nt e n c e t o it. T hi s
bl at a nt e r r o r t h u s d e p ri v e d H u c k a b a y of hi s ri g ht t o
b e h e a r d, a d u e p r o c e s s ri g ht l o n g r e c o g ni z e d b y t hi s
C o u rt u n d e r t h e 1 4t h A m e n d m e nt.
U nf o rt u n at el y, P etiti o n e r i s n ot al o n e. T h e n u m b e r
of st at e a n d f e d e r al f el o n y st at ut e s t h at i m p o s e s e ri o u s
p e n alti e s wit h o ut a s ci e nt e r r e q ui r e m e nt h a s e x pl o d e d
i n r e c e nt y e a r s. Y et l o w e r c o u rt s a r e di vi d e d o n

2
w h et h e r s u c h st at ut e s t ri g g e r d u e p r o c e s s p r ot e cti o n s
o r m e r el y a r ul e of c o n st r u cti o n t o r e a d s ci e nt e r i nt o
t h e st at ut o r y sil e n c e. T hi s C o u rt’ s di r e cti o n o n t h e s e
t w o i m p o rt a nt i s s u e s t hi s p etiti o n r ai s e s i s s o r el y
n e e d e d f o r t h o u s a n d s of A m e ri c a n s li k e P etiti o n e r .
A n d h e r e di r e ct r e vi e w b y t hi s C o u rt i s t h e l a st li n e of
d ef e n s e si n c e P etiti o n e r, n o w a c o n vi ct e d f el o n wit h all
of t h e di s a biliti e s t h at st at u s b ri n g s, i s n o l o n g e r i n
st at e c u st o d y aft e r h a vi n g e x h a u st e d st at e r e m e di e s.
T h e C o u rt s h o ul d eit h e r g r a nt t h e p etiti o n a n d s et
t hi s c a s e f o r f ull b ri efi n g a n d a r g u m e nt o r, at a
mi ni m u m, g r a nt, v a c at e a n d r e m a n d ( G V R) wit h
di r e cti o n s f o r t h e I d a h o S u p r e m e C o u rt t o a d d r e s s t h e
s ci e nt e r i s s u e i n t h e fi r st i n st a n c e.
O PI NI O N S B E L O W
T h e I d a h o S u p r e m e C o u rt i s s u e d a n o pi ni o n o n
D e c e m b e r 3, 2 0 2 0. P etiti o n e r s u b s e q u e ntl y fil e d a
P etiti o n f o r R e h e a ri n g. T h e c o u rt d e ni e d r e h e a ri n g b ut
i s s u e d a s u b stit ut e o pi ni o n o n F e b r u a r y 5, 2 0 2 1. T h at
o pi ni o n i s r e p ri nt e d at P et. A p p. 1 a. T h e o pi ni o n of t h e
c o u rt of a p p e al s of I d a h o w a s fil e d o n F e b r u a r y 7,
2 0 2 0, a n d i s r e p ri nt e d at P et. A p p. 1 7 a.
J U RI S DI C TI O N
T h e S u p r e m e C o u rt of I d a h o e nt e r e d fi n al
j u d g m e nt o n F e b r u a r y 5, 2 0 2 1 . P et. A p p. 1 a. T hi s C o u rt
h a s j u ri s di cti o n u n d e r 2 8 U. S. C. § 1 2 5 7 (a ).
R E L E V A N T C O N S TI T U TI O N A L & S T A T U T O R Y
P R O VI SI O N S
S e cti o n O n e of t h e 1 4t h A m e n d m e nt of t h e U. S.
C o n stit uti o n p r o vi d e s i n p a rt t h at n o St at e s h all

3
“d e p ri v e a n y p e r s o n of lif e, li b e rt y, o r
wit h o ut d u e p r o c e s s of l a w .”

p r o p e rt y,

I d a h o C o d e § 3 6 -1 4 0 1 ( c) p r o vi d e s i n p a rt t h at
“[ u] nl a wf ull y killi n g, p o s s e s si n g, o r w a sti n g of a n y
wil dlif e wit hi n a t w el v e ( 1 2) m o nt h p e ri o d h a vi n g a
si n gl e o r c o m bi n e d r ei m b u r s a bl e d a m a g e a s s e s s m e nt
of m o r e t h a n o n e t h o u s a n d d oll a r s ( $ 1, 0 0 0)” i s a f el o n y
off e n s e.
S T A T E M E N T
A. L e g al F r a m e w o r k
A l o n g li n e of t hi s C o u rt’ s c a s e s h a s r e c o g ni z e d t h e
d u e -p r o c e s s p r o bl e m s i n h e r e nt i n st at ut e s n e gl e cti n g
t o i n cl u d e a s ci e nt e r r e q ui r e m e nt. S h e vli n -C a r p e nt e r
C o. v. St at e of Mi n n. , 2 1 8 U. S. 5 7, 6 9-7 0 ( 1 9 1 0) ;
M o ri s s ett e v. U nit e d St at e s , 3 4 2 U. S. 2 4 6 , 2 5 2 ( 1 9 5 2);
L a m b e rt v. C ali f o r ni a, 3 5 5 U. S. 2 2 5, 2 2 8 ( 1 9 5 7).
I n d e e d, j u st t w o t e r m s a g o, t h e C o u rt r e c o g ni z e d t h at
a “ b a si c p ri n ci pl e” u n d e rl yi n g t h e c ri mi n al l a w i s t h e
s h o wi n g of a “ vi ci o u s will.” R e h aif v. U nit e d St at e s , 1 3 9
S. Ct. 2 1 9 1, 2 1 9 6 ( 2 0 1 9) ( q u oti n g 4 W. Bl a c k st o n e,
C o m m e nt a ri e s o n t h e L a w s of E n gl a n d 2 1 ( 1 7 6 9) ). A n d
t hi s C o u rt h a s r e c o g ni z e d t h at t hi s f u n d a m e nt al
p ri n ci pl e “i s n o p r o vi n ci al o r t r a n si e nt n oti o n,” b ut
i n st e a d a “u ni v e r s al a n d p e r si st e nt [f e at u r e] i n
m at u r e s y st e m s of l a w” t h at h a d “[ u] q u alifi e d
a c c e pt a n c e” i n t h e “ c o m m o n l a w i n t h e Ei g ht e e nt h
C e nt u r y” a s w ell a s i nt o “t h e Ni n et e e nt h C e nt u r y.”
M o ri s s ett e , 3 4 2 U. S. at 2 5 0-2 5 1. C o n si st e nt wit h t hi s
p ri n ci pl e a n d t h e C o u rt’ s w ell -d o c u m e nt e d d u e p r o c e s s c o n c e r n s, t h e C o u rt h a s a d d r e s s e d s ci e nt e r
r e q ui r e m e nt s a s o n e i m p o rt a nt w a y f o r c o u rt s t o
“ di sti n g ui s h[] c ri mi n al f r o m ci vil st at ut e s.” K a n s a s v.

4
H e n d ri c k s, 5 2 1 U. S. 3 4 6, 3 6 2 ( 1 9 9 7) ( citi n g K e n n e d y v.
M e n d o z a -M a rti n e z , 3 7 2 U. S. 1 4 4, 1 6 8 ( 1 9 6 3)).
H o w e v e r, st at e a n d f e d e r al c o u rt s a r e di vi d e d o n
w h et h e r a s ci e nt e r r e q ui r e m e nt i s a c o n stit uti o n al
mi ni m u m f o r s u c h c ri m e s, o r w h et h e r it i s m e r el y a
p r e s u m pti o n u s e d t o fill i n a g a p, b ut n ot ot h e r wi s e
m a n d at e d.
A s r el e v a nt t o t hi s c a s e, d u e p r o c e s s al s o r e q ui r e s
t h at a d ef e n d a nt b e gi v e n a f ull a n d f ai r “ o p p o rt u nit y
t o b e h e a r d.” G r a n ni s v. O r d e a n , 2 3 4 U. S. 3 8 5, 3 9 4
( 1 9 1 4). T h at ri g ht s e r v e s a s a b ul w a r k a g ai n st
“ s u b st a nti v el y
u nf ai r
and
si m pl y
mi st a k e n
d e p ri v ati o n s of [li b e rt y a n d] p r o p e rt y i nt e r e st s.”
F u e nt e s v. S h e vi n , 4 0 7 U. S. 6 7, 8 1 ( 1 9 7 2). A n d t h e
d e n i al of t h at o p p o rt u nit y b a s e d o n o v e rl y r e st ri cti v e
st at e l a w r ul e s o r p r a cti c e s b ot h vi ol at e s d u e s p r o c e s s
a n d d o e s n ot q u alif y a s a n a d e q u at e a n d i n d e p e n d e nt
g r o u n d f o r r ef u si n g t o r ul e o n ot h e r i s s u e s . S e e, e. g. ,
Mi c hi g a n v. L o n g , 4 6 3 U. S. 1 0 3 2 ( 1 9 8 3).
T h at c o n stit uti o n al p r o mi s e of t h e o p p o rt u nit y t o
b e h e a r d, h o w e v e r, i s ill u s o r y if a r e vi e wi n g c o u rt
t u r n s a bli n d e y e t o a r g u m e nt s t h at cl e a rl y h a v e b e e n
r ai s e d. Aft e r all, t h e o p p o rt u nit y t o b e h e a r d, t hi s
C o u rt h a s h el d, m u st b e “ m e a ni n gf ul .” T e n n e s s e e v.
L a n e , 5 4 1 U. S. 5 0 9, 5 2 3 ( 2 0 0 4).
B. F a c t u al B a c k g r o u n d
I n t h e f all of 2 0 1 4, o n w h at w a s o p e ni n g d a y f o r t h e
b ull m o o s e s e a s o n i n p o rti o n s of t h e st at e, P etiti o n e r
r e c ei v e d a p h o n e c all f r o m a n ei g h b o r li vi n g i n t h e

5
a r e a. 1 T h e n ei g h b o r i n f o r m e d P etiti o n e r t h at a p e s k y
m o o s e w a s b a c k a n d a s k e d w h et h e r P etiti o n e r c o ul d
d o s o m et hi n g a b o ut it. P etiti o n e r s ai d h e c o ul d n ot
h el p t h at d a y, b ut h e mi g ht k n o w s o m e o n e w h o c o ul d.
S o P etiti o n e r c all e d s o m e o n e w h o t h e n c all e d a t hi r d
p e r s o n, r e s ulti n g i n t w o i n di vi d u al s t r a v eli n g t o t h e
n ei g h b o r’ s l o c al e a n d killi n g t h e m o o s e. T h e s e t w o
i n di vi d u al s t h e n c all e d P etiti o n e r t o i nf o r m hi m t h e y
n e e d e d h el p g etti n g t h e m o o s e c a r c a s s o ut of
s o m e o n e’ s y a r d , gi v e n t h e m o o s e’ s w ei g ht. Wit h n o
e vi d e n c e t h at at t hi s p oi nt P etiti o n e r k n e w t h at t h e r e
w a s a p o s si bilit y t h at killi n g it t h at d a y w o ul d h a v e
vi o l at e d s e a s o n al r e st ri cti o ns , P etiti o n e r s ai d h e
w o ul d g et h el p. H e t h u s c all e d a n a s s o ci a t e— a l o c al
b ut c h e r — w h o h a d a t r u c k wit h a c r a n e f o r lifti n g bi g
g a m e . T h e b ut c h e r c a m e a n d g ot P etiti o n e r a n d t h e y
t r a v el e d t o t h e sit e w h e r e t h e m o o s e c a r c a s s l a y .
A m a r ri e d c o u pl e st a yi n g i n a c a bi n at L a k e C o e u r
d’ Al e n e h a d h e a r d t h e e a rli e r s h ot a n d w h e n t h e y w e nt
t o i n v e sti g at e, fo u n d P etiti o n e r , t h e t r u c k d ri v e r , a n d
t h e m o o s e c a r c a s s i n t h e b a c k of t h e t r u c k . P et. A p p. 2 a.
T h e c o u pl e w o ul d l at e r t e stif y b ef o r e t h e g r a n d j u r y
a n d at t ri al t h at t h e y s a w a n i nt a ct c o w m o o s e h a n gi n g
o n t h e t r u c k a n d t h at t h e d ri v e r s ai d t h at h e h a d a t a g
f o r t h e m o o s e.2 B a s e d o n t h e d ri v e r’ s a s s u r a n c e,
P etiti o n e r al s o st at e d t h at t h e y h a d a t a g f o r t h e
m o o s e. I bi d . N ot h a v i n g a n y k n o wl e d g e o r b eli ef t h at
Gi v e n t h at t h e St at e f elt n o n e e d t o d e v el o p t h e f a ct u al
r e c o r d u n d e r it s st ri ct li a bilit y r e a di n g of t h e st at ut e, n ot all of
t h e s e f a ct s a r e i n t h e r e c o r d b el o w.
1

2 S e e C o nfi d e nti al E x hi bit s (“ C o nf. E x h s. ”), at 6 1 -6 3, 7 0 -7 1,
T r a n s c ri pt of G r a n d J u r y P r o c e e di n g s (“G J T r. ”), at 1 1 -1 3, 1 8 2 0, 4 8, 5 0 -5 3; T r., 1 9 3 -9 4, 1 9 6, 1 9 9, 2 0 4 -0 6, 2 4 6, 2 4 8 -5 2, 2 6 4 -6 5.

6
he
co
ho
co

h a d b r o k e n a n y l a w s, P etiti o n e r r e a dil y g a v e t h e
u pl e hi s n a m e a n d c o nt a ct i nf o r m ati o n . T h e d ri v e r,
w e v e r, di d n ot p r o vi d e t h at s a m e i nf o r m ati o n t o t h e
u pl e.

A s t h e c o u pl e d r o v e a w a y, t h e wif e r e p o rt e d t h e
m o o s e m a y h a v e b e e n kill e d o ut of s e a s o n, r e p o rt e d t h e
i n ci d e nt t o t h e I d a h o D e p a rt m e nt of Fi s h a n d G a m e.
I bi d. A n offi c e r r e a c h e d o ut t o P etiti o n e r , a n d t h e t w o
s o o n m et at t h e C o e u r d’ Al e n e offi c e. I d. at 2 a -3 a.
P etiti o n e r willi n gl y t o ok t h e offi c e r s t o t h e pl a c e w h e r e
t h e m o o s e w a s al r e a d y l yi n g d e a d “ w h e n h e a r ri v e d o n
t h e s c e n e t o c oll e ct t h e c a r c a s s.” I d. at 3 a. Offi c e r s al s o
vi sit e d t h e l o c al b ut c h e r w h o h a d b e e n d ri vi n g t h e
t r u c k. I bi d. T h e r e, t h e y f o u n d t h e c o w m o o s e s ki n n e d
a n d q u a rt e r e d i n hi s w al k -i n c o ol e r. I bi d. T h e c a r c a s s
w a s still w a r m, a n d bl o o d s a m pl e s l at e r c o nfi r m e d
t h at t hi s m o o s e w a s t h e s a m e m o o s e kill e d at t h e kill
sit e. I bi d.
C. P r o c e d u r al Hi s t o r y
A g r a n d j u r y w a s c o n v e n e d. A n I d a h o D e p a rt m e nt
of Fi s h a n d G a m e Offi c e r a n d t h e p r o s e c ut o r m a d e
m ulti pl e,
m at e ri al,
err o n e o us ,
a n d i m pr o p er
st at e m e nt s , th e g r a n d j u r y i n di ct e d P etiti o n e r f o r
u nl a wf ull y killi n g o r p o s s e s si n g t h e m o o s e b y g utti n g,
q u a rt e ri n g a n d/ o r t r a n s p o rti n g it wit h o ut a t a g, i n
vi ol ati o n of st at e l a w . P et. A p p. 3 a. H o w e v e r, t h e
di st ri ct c o u rt f o u n d t h at t h e r e w a s i n s uffi ci e nt
e vi d e n c e t h at P etiti o n e r h a d kill e d t h e m o o s e . I d. at
4 a. S o t h e St at e a m e n d e d t h e i n di ct m e nt t o i n st e a d
a c c u s e P etiti o n e r of j u st u nl a wf ull y p o s s e s si n g a
m o o s e . I bi d .

7
T h e c a s e w e nt t o t ri al, a n d P etiti o n e r w a s
ulti m at el y c o n vi ct e d of f el o n y u nl a wf ul p o s s e s si o n of a
m o o s e. I bi d. T h e St at e di d n ot r el y o n a t h e o r y t h at
P etit i o n e r h a d ai d e d a n d a b ett e d t h e l o c al b ut c h e r w h o
h a d t h e m o o s e i n hi s t r u c k a n d l at e r i n hi s m e at
l o c k e r. A n d t h e St at e f ail e d t o p r o v e t h at P etiti o n e r
k n e w t h at t h e m o o s e h a d b e e n t a k e n o r kill e d o ut of
s e a s o n o r p o s s e s s e d wit h o ut a v ali d t a g. H e w a s gi v e n
a $ 1, 5 0 0 ci vil p e n alt y a n d a $ 2 5, 0 0 0 fi n e a n d l o st hi s
h u nti n g a n d fi s hi n g li c e n s e s f o r t h r e e y e a r s. I bi d. A s
a f el o n, h e w a s al s o s e nt e n c e d t o a c o m bi n e d ( o n e y e a r
fi x e d, o n e i n d et e r mi n at e) t w o y e a r s i n p ri s o n, b ut t h at
s e nt e n c e w a s s u s p e n d e d. I d. at 5 a. T h e c o u rt pl a c e d
hi m o n p r o b ati o n a n d r e q ui r e d t h at h e s e r v e 3 0 d a y s
i n a l o c al j ail. I bi d. T h e st at ut e c a r ri e d a p e n alt y of u p
t o fi v e y e a r s i n p ri s o n a n d a $ 5 0, 0 0 0 fi n e. S e e I d a h o
C o d e § 1 8 -1 1 2 .3 A n d a f el o n y c o n vi cti o n di s q u alifi e d

W hil e h a vi n g a f el o n y c o n vi cti o n al w a y s h a s s e ri o u s
c o n s e q u e n c e s, i n P etiti o n e r’ s c a s e t h e f all o ut i s e s p e ci all y
h a r mf ul. P etiti o n e r i s a s u c c e s sf ul p hil a n t h r o pi st w h o t r a v el s
gl o b all y t o c o n d u ct hi s p hil a nt h r o pi c, b u si n e s s, a n d e d u c ati o n al
a cti viti e s i n pl a c e s li k e S o ut h Af ri c a, A u st r ali a, a n d el s e w h e r e.
S e e D a vi d A s h b y, I d a h o M a n t o S e r v e M o nt h i n j ail I n M o o s e
P o a c hi n g
C ase ,
I da ho
St.
J.
( May
1 8,
2 0 1 8),
h tt p s://ti n y u rl. c o m/ 5 3 z b p w m h ( r e p o rti n g t h at
H u c k a b a y’ s
f o u n d ati o n “ h a s c o m mitt e d m o r e t h a n $ 8 milli o n t o w a r d
s c h ol a r s hi p s t h r o u g h t h e U ni v e r sit y of W a s hi n gt o n f o r st u d e nt s
w h o w a nt t o p r a cti c e r u r al m e di ci n e i n t h e n o rt h w e st”); D e vi n
W e e k s, Ki n d n e s s Wi n s t h e D a y , C o e u r d’ Al e n e/ P o st F all s P r e s s
( N o v. 4, 2 0 2 0), htt p s://ti n y u rl. c o m/ 2 s 9 h u r d b ( r e p o rti n g t h at
H uc k a b a y
had
bee n
h o n ore d
a s “ O ut st a n di n g
A d ult
P hil a nt h r o pi st”). B ut a s a c o n vi ct e d f el o n, m a n y n ati o n s will n ot
all o w hi m e nt r y.
3

8
P eti ti o n e r f r o m v oti n g,
p o s s e s si n g fi r e a r m s .

r u n ni n g

f or

offi c e,

or

O n a p p e al, t h e I d a h o C o u rt of A p p e al s a g r e e d wit h
P etiti o n e r ’ s cl ai m t h at I d a h o l a w r e q ui r e d p o s s e s si o n
of m o r e t h a n o n e a ni m al t o c o n stit ut e a f el o n y.
P et. A p p. 1 8 a. A c c o r di n gl y, it v a c at e d hi s c o n vi cti o n
wit h o ut r e a c hi n g P etiti o n e r’ s ot h e r a r g u m e nt s,
i n cl u di n g t h e l a c k of a s ci e nt e r r e q ui r e m e nt i n t h e
st at ut e . I bi d.
B ut t h e St at e p etiti o n e d t h e I d a h o S u p r e m e C o u rt
f o r r e vi e w. I bi d. B ef o r e t h at c o u rt , P etiti o n e r ’ s b ri ef
s p e nt o v e r fi v e p a g e s e x pl ai ni n g t h at t h e l a c k of a
s ci e nt e r r e q ui r e m e nt f o r t h e f el o n y of w hi c h h e w a s
c o n vi ct e d vi ol at e s f e d e r al d u e p r o c e s s. P et. A p p. 3 9 a 4 5 a . A s r el e v a nt h e r e, h e e x pl ai n e d t h at t h e S e c o n d
A m e n d e d I n di ct m e nt l a c k e d t h e “ all e g ati o n of s ci e nt e r
t h at m o st f el o n y c o n vi cti o n s r e q ui r e.” P et. A p p. 3 9 a . H e
f u rt h e r e x pl ai n e d t h at c ri mi n al off e n s e s wit h o ut a
m e n s r e a r e q ui r e m e nt a r e “ g e n e r all y di sf a v o r e d.”
P et. A p p. 4 0 a ( citi n g Li p a r ot a v. U nit e d St at e s , 4 7 1 U. S.
4 1 9, 4 2 5 -4 2 6 ( 1 9 8 5) ). H e t h e n p r o vi d e d t w o p a g e s
e x pl ai ni n g h o w t h e I d a h o l e gi sl at u r e “[ e] m b r a c e d t h at
p ri n ci pl e of A m e ri c a n j u sti c e” b y r e q ui ri n g “ e v e r y
c ri m e o r p u bli c off e n s e” t o h a v e a “ u ni o n, o r j oi nt
o p e r ati o n, of a ct a n d i nt e nt, o r c ri mi n al n e gli g e n c e.”
I bi d. ( q u oti n g I d a h o C o d e § 1 8 -1 1 4 ). H e t h e n c o n cl u d e d
t h at “ d u e p r o c e s s d o e s n ot all o w [ hi m] t o b e c o n vi ct e d
of a f el o n y i n v ol vi n g t h e p o s s e s si o n of a m o o s e b a s e d
o n st ri ct li a bilit y o r o r di n a r y n e gli g e n c e.
M er e
p o s s e s si o n d o e s n ot c o n n ot e c ri mi n al k n o wl e d g e o r
s ci e n t e r.” P et. A p p. 4 3 a .
D e s pit e m o r e t h a n fi v e p a g e s of b ri efi n g a r g ui n g
t h at d u e p r o c e s s r e q ui r e d a s ci e nt e r el e m e nt, t h e

9
I d a h o S u p r e m e C o u rt “ d e cli n e[ d] t o c o n si d e r ” t h at
p oi nt, e r r o n e o u sl y fi n di n g t h at it w a s “ m e r el y
m e nti o n e d i n p a s si n g.” I d. at 1 3 a -1 4 a. T h e I d a h o
S u p r e m e C o u rt t h e n r e v e r s e d t h e C o u rt of A p p e al s
a n d affi r m e d P etiti o n e r ’ s c o n vi cti o n. I d. at 1 6 a.
R E A S O N S F O R G R A N TI N G T H E P E TI TI O N
T hi s p etiti o n s h o ul d b e g r a nt e d b e c a u s e t h e fi r st
q u e sti o n s q u a r el y f all s wit hi n t h e c at e g o r y of c o nfli ct s
i d e ntifi e d i n R ul e 1 0 ( b), a n d t h e s e c o n d q u e sti o n f all s
w ell wit hi n R ul e 1 0( c)’ s c at e g o r y of d e ci si o n s t h at
“ c o nfli ct[] wit h r el e v a nt d e ci si o n s of t hi s C o u rt.” S u p.
C t. R ul e 1 0( c). I n d e e d , t h e e r r o r t h at i s t h e s u bj e ct of
t h e s e c o n d q u e sti o n i s s o e g r e gi o u s t h at it w a r r a nt s ,
i n t h e alt e r n ati v e, a v a c at u r a n d r e m a n d t o t h e I d a h o
S u p r e m e C o u rt t o c o n si d e r P etiti o n e r ’ s c o r e d u e
p r o c e s s a r g u m e nt o n t h e m e rit s.
I. L o w e r C o u r t s a r e H o p el e s s l y Di vi d e d O v e r
W h e t h e r t h e D u e P r o c e s s Cl a u s e R e q ui r e s a
S ci e n t e r El e m e n t f o r F el o ni e s wi t h S e v e r e
P e n al ti e s o r W h e t h e r t h e I n cl u si o n of S u c h
a n El e m e n t i s M e r el y a R ul e of C o n s t r u c ti o n .
A. W
i
C
W
D

h e n R e a di n g a S ci e n t e r R e q ui r e m e n t
n t o F e d e r al C ri mi n al S t a t u t e s, t hi s
o u r t h a s Hi n t e d a t B u t N e v e r Cl a rifi e d
h e t h e r T h a t R e a di n g i s R e q ui r e d b y
u e Pr oc ess .

M o st j u ri s di cti o n s, i n a p p r o a c hi n g a c ri mi n al
li a bilit y st at ut e wit h o ut a n e x p r e s s m e n s r e a o r
s ci e nt e r el e m e nt, d e ri v e t h ei r l e g al f r a m e w o r k f r o m a
li n e of p r e c e d e nt s h a r ki n g b a c k at l e a st a s f a r a s t hi s
C o u rt’ s d e ci si o n i n S h e vli n -C a r p e nt e r C o. v. St at e of
Mi n n. , 2 1 8 U. S. 5 7, 7 0 ( 1 9 1 0). T h e r e t h e C o u rt

10
o b s e r v e d t h at a st at e’ s p oli c e p o w e r “ m a y n ot
t r a n s c e n d t h e p r o hi biti o n of t h e C o n stit uti o n of t h e
U nit e d St at e s .” I bi d . T h u s, if “ i nt e nt i s a n e s s e nti al
el e m e nt of c ri m e, o r, m o r e r e s t ri cti v el y, if i nt e nt i s
e s s e nti al t o t h e l e g alit y of p e n alti e s, it m u st b e s o, n o
m att e r u n d e r w h at p o w e r of t h e st at e t h e y a r e
p r e s c ri b e d .” I bi d .
1. T h e C o u rt a d d r e s s e d t h e i s s u e m o r e f ull y i n
M o ri s s ett e v. U nit e d St at e s , 3 4 2 U. S. 2 4 6 ( 1 9 5 2). T h er e
t h e c o u rt, b al ki n g at a f e d e r al st at ut e i m p o si n g
c ri mi n al li a bilit y wit h o ut a n e x p r e s s “ r e q ui r e m e nt of
g uilt y i nt e nt,” h el d t h at “t h e m e r e o mi s si o n” of a n
i nt e nt el e m e nt w o ul d “ n ot b e c o n st r u e d a s eli mi n ati n g
t h at el e m e nt f r o m t h e c ri m e s d e n o u n c e d.” I d. at 2 6 3.
I n s o d oi n g, M o ri s s ett e
r e c o g ni z e d “t h e a n ci e nt
r e q ui r e m e nt of a c ul p a bl e st at e of mi n d .” I d . at 2 5 0.
T h e C o u rt o b s e r v e d t h at “[t] h e c o nt e nti o n t h at a n
i nj u r y c a n a m o u nt t o a c ri m e o nl y w h e n i nfli ct e d b y
i nt e nti o n i s n o p r o vi n ci al o r tr a n si e nt n oti o n ” i s
“u ni v e r s al a n d p e r si st e nt i n m at u r e s y st e m s of l a w .”
I bi d .
F u rt h e r, i n l o o ki n g at t h e hi st o r y, M o ri s s ett e
p oi nt e d o ut t h e “[ u] n q u alifi e d
a c c e pt a n c e of t hi s
d o ct ri n e b y E n gli s h c o m m o n l a w i n t h e Ei g ht e e nt h
C e nt u r y ,” a n d t h at “[ c] o m m o n-l a w c o m m e nt at o r s of
t h e Ni n et e e nt h C e nt u r y e a rl y p r o n o u n c e d t h e s a m e
p ri n ci pl e.” I d . at 2 5 1. A n d t h e i d e a t h at c ri m e
“g e n e r all y c o n stit ut e d o nl y f r o m c o n c u r r en c e of a n
e vil -m e a ni n g mi n d wit h a n e vil -d oi n g h a n d * * * t o o k
d e e p a n d e a rl y r o ot i n A m e ri c a n s oil.” I d . at 2 5 1-2 5 2
( e m p h a si s a d d e d).
H o w e v e r, t h e C o u rt n ot e d a n e x c e pti o n t o t hi s
u ni v e r s al r ul e: c ri m e s t h at “ c o n si st o nl y of f o r bi d d e n

11
a ct s o r o mi s si o n s,” s u c h a s l a w s r e g ul ati n g w o r k pl a c e
s af et y, t r affi c, f o o d a n d d r u g s af et y, a n d w h at t h e
C o u rt r ef e r r e d t o a s “ p u bli c w elf a r e off e n s e s.” I d . at
2 5 4 -2 5 5. M o ri s s ett e c h a r a ct e ri z e d t h e s e a s off e n s e s “i n
t h e n at u r e of n e gl e ct w h e r e t h e l a w r e q ui r e s c a r e, o r
i n a cti o n w h e r e it i m p o s e s a d ut y,” a n d t h at “ vi ol ati o n s
of s u c h r e g ul ati o n s r e s ult i n n o di r e ct o r i m m e di at e
i nj u r y t o p e r s o n o r p r o p e rt y b ut m e r el y c r e at e t h e
d a n g e r o r p r o b a bilit y of it w hi c h t h e l a w s e e k s t o
mi ni mi z e.” I d . at 2 5 5-2 5 6. A n d t h e C o u rt n ot e d t h at
t h e s e “ p u bli c w elf a r e off e n s e s” t y pi c all y r e s ult i n
“ p e n alti e s [t h at] c o m m o nl y a r e r el ati v el y s m all, a n d
c o n vi cti o n d o e s n o g r a v e d a m a g e t o a n off e n d e r’ s
r e p ut ati o n.” I d . at 2 5 6.
Ulti m at el y, t h e C o u rt c o n cl u d e d t h at t h e off e n s e at
i ss u e i n t h at c a s e — t h eft— w a s o n e f r o m t h e c o m m o n
l a w w h e r e “t h e p e n alt y i s hi g h a n d, w h e n a s uffi ci e nt
a m o u nt i s i n v ol v e d, t h e i nf a m y i s t h at of a f el o n y,
w hi c h, s a y s M aitl a n d, i s ‘ a s b a d a w o r d a s y o u c a n gi v e
t o m a n o r t hi n g.’ ” I d . at 2 6 0 ( q u oti n g 2 P oll o ck &
M aitl a n d, Hi st o r y of E n gli s h L a w , 4 6 5). A c c o r di n gl y,
t h e C o u rt r e a d a s ci e nt e r r e q ui r e m e nt i nt o t h e st at ut e
a n d r e v e r s e d t h e c o n vi cti o n. I d . at 2 7 6. S e e al s o
St a pl e s v. U nit e d St at e s , 5 1 1 U. S. 6 0 0, 6 1 8 ( 1 9 9 4)
( r ef u si n g t o “ a p pl y t h e p u bli c w elf a r e off e n s e r ati o n al e
t o i nt e r p r et a n y st at ut e d efi ni n g a f el o n y off e n s e a s
di s p e n si n g wit h m e n s r e a ”).
2. A f e w y e a r s l at e r, t h e C o u rt i n L a m b e rt v.
C alif o r ni a n ot e d t h at, alt h o u g h l a w m a k e r s h a d “ wi d e
l atit u d e” t o “ e x cl u d e el e m e nt s of k n o wl e d g e” f r o m
c ri mi n al st at ut e s, “ d u e p r o c e s s pl a c e s s o m e li mit s” o n
t h e e x e r ci s e of t h at p o w e r. 3 5 5 U. S. 2 2 5, 2 2 8 ( 1 9 5 7).
T h at i s b e c a u s e “[ e] n g r ai n e d i n o u r c o n c e pt of d u e

12
p r o c e s s i s t h e r e q ui r e m e nt of n oti c e .” I bi d . A n d w hil e
n oti n g t h at t hi s d u e p r o c e s s p ri n ci pl e of n oti c e w a s
oft e n e nf o r c e d a s t o p r o p e rt y i nt e r e st s, t h e C o u rt
o b s e r v e d t h at “ t h e p ri n ci pl e i s e q u all y a p p r o p ri at e
w h e r e a p e r s o n, w h oll y p a s si v e a n d u n a w a r e of a n y
w r o n g d oi n g, i s b r o u g ht t o t h e b a r of j u sti c e f o r
c o n d e m n ati o n i n a c ri mi n al c a s e. ” I bi d . T h u s, t h e
c o u rt st r u c k d o w n a L o s A n g el e s o r di n a n c e i m p o si n g
c ri mi n al p e n alti e s f o r p a s si v e a n d u n witti n g f ail u r e t o
r e gi st e r, c o n cl u di n g t h at s u c h li a bilit y
w as
“[i n] c o n si st e nt[] wit h d u e p r o c e s s.” I d. at 2 2 9 -3 0.
L a m b e rt ’ s h ol di n g t h u s r e st e d o n t h e D u e P r o c e s s
Cl a u s e: It m a d e n o r ef e r e n c e t o M o ri s s ett e , n o r di d it
a p pl y a n y of t h at d e ci si o n’ s f e d e r al i nt e r p r eti v e
p ri n ci pl e s i n c o n st r ui n g t h e m u ni ci p al l a w.
3 . Si n c e M o ri s s ett e a n d L a m b e rt , t hi s C o u rt h a s
cl e a rl y e n d o r s e d t h e s ci e nt e r r e q ui r e m e nt a s a
p ri n ci pl e f o r c o n st r ui n g f e d e r al c ri mi n al st at ut e s b ut
h a s s p o k e n l e s s cl e a rl y a b o ut t h e ci r c u m st a n c e s u n d e r
w hi c h t h e D u e P r o c e s s C l a u s e i m p o s e s c o n stit uti o n al
li mit ati o n s o n f e d e r al o r st at e st at ut e s c r e ati n g
c ri mi n al li a bilit y wit h o ut a n e x p r e s s o r i m pli e d
s ci e nt e r el e m e nt.
F o r e x a m pl e, i n U nit e d St at e s v. I nt’l Mi n s. &
C h e m. C o r p. , 4 0 2 U. S. 5 5 8 ( 1 9 7 1), t h e C o u rt a d d r e s s e d
t h e a r g u m e nt t h at a p e r s o n m u st k n o w t h at s h e i s
vi ol ati n g a s p e cifi c l a w p r o hi biti n g t h e t r a n s p o rt ati o n
o f d a n g e r o u s c h e mi c al s
wit h o ut s h o wi n g t h e
c h e mi c al s o n t h e s hi p pi n g p a p e r s. I d . at 5 5 9-5 6 0. T h e
c o u rt r ej e ct e d t hi s a r g u m e nt b ut c a uti o n e d t h at l e s s
o b vi o u sl y d a n g e r o u s it e m s “ m a y b e t h e t y p e of
p r o d u ct s w hi c h mi g ht r ai s e s u b st a nti al d u e p r o c e s s
q u e sti o n s if C o n g r e s s di d n ot r e q ui r e * * * ‘ m e n s r e a’ a s

13
t o e a c h i n g r e di e nt of t h e off e n s e.” I d . at 5 6 4-5 6 5.
A d diti o n all y, i n U nit e d St at e s v. U. S. G y p s u m C o. , t he
C o u rt i n di c at e d t h at “t h e h ol di n g i n M o ri s s ett e c a n b e
f ai rl y r e a d a s e st a bli s hi n g, at l e a st wit h r e g a r d t o
c ri m e s h a vi n g t h ei r o ri gi n i n t h e c o m m o n l a w, a n
i nt e r p r eti v e p r e s u m pti o n t h at m e n s r e a i s r e q ui r e d.”
4 3 8 U. S. 4 2 2, 4 3 7 ( 1 9 7 8) . At t h e s a m e ti m e, h o w e v e r,
t h at o pi ni o n a c k n o wl e d g e d, wit h o ut el a b o r ati o n, t h at
st ri ct li a bilit y off e n s e s mi g ht “ off e n d c o n stit uti o n al
r e q ui r e m e nt s.” I d.
A s r e c e ntl y a s 2 0 1 9, t hi s C o u rt h a s c o nti n u e d t o
i n v o k e s ci e nt e r a s a cl e a r p ri n cipl e of st at ut o r y
i nt e r p r et ati o n w hil e t o u c hi n g o nl y li g htl y o n t h e d u e
p r o c e s s c o n c e r n s b e hi n d t h at p r e s u m pti o n. I n R e h aif ,
t h e m aj o rit y o pi ni o n i n v o k e d t h e “l o n g st a n di n g
p r e s u m pti o n” i n f a v o r of s ci e nt e r wit h o ut a n y e x p r e s s
r ef e r e n c e t o d u e p r o c e s s. 1 3 9 S. Ct. at 2 1 9 5.
N e v e rt h el e s s, t h e di s s e nt a c k n o wl e d g e d t h e d u e
p r o c e s s c o n c e r n s u n d e rl yi n g s u c h p ri n ci pl e s of
c o n st r u cti o n, n oti n g wit h r e s p e ct t o t h e c a n o n of
c o n stit uti o n al a v oi d a n c e t h at “ w e h a v e n e v e r h el d t h at
t h e D u e P r o c e s s Cl a u s e r e q ui r e s m e n s r e a f o r all
el e m e nt s of all off e n s e s, a n d w e h a v e u p h el d t h e
c o n stit uti o n alit y of s o m e st ri ct -li a bilit y off e n s e s i n t h e
p a st.” I d. at 2 2 1 2 ( Alit o, J., di s s e nti n g) ( e m p h a si s
a d d e d) .
T h u s, a s t h e T hi r d Ci r c uit h a s o b s e r v e d, t hi s C o u rt
“h a s i n di c at e d t h at t h e d u e p r o c e s s cl a u s e m a y s et
s o m e li mit s o n t h e i m p o siti o n of st ri ct c ri mi n al
li a bilit y, b ut it h a s n ot s et f o rt h d efi nit e g ui d eli n e s a s
t o w h at t h o s e li mit s mi g ht b e. ” U nit e d St at e s v.
E n gl e r , 8 0 6 F. 2 d 4 2 5, 4 3 3– 4 3 4 ( 3 d Ci r. 1 9 8 6) ( citi n g
I nt’l Mi n e r al s & C h e mi c al C o r p. a n d L a m b e rt ). Gi v e n

14
t hi s l a c k of cl a rit y , st at e c o u rt s a n d f e d e r al c o u rt s of
a p p e al s att e m pti n g t o a p pl y t hi s C o u rt’ s p r e c e d e nt s
a r e di vi d e d o v e r t h e e xt e nt t o w hi c h, wit h r e s p e ct t o
s ci e nt e r,
t he
D ue
P r oc ess
C l a use i m poses
c o n stit uti o n al r e q ui r e m e nt s a s o p p o s e d t o m e r e l y
i nt e r p r etin g f e d e r al c ri mi n al st at ut e s t o i n cl u d e s u c h
r e q ui r e m e nt s .
B. A t L e a s t T h r e e F e d e r al Ci r c ui t s a n d
M a n y S t a t e S u p r e m e C o u r t s R e c o g ni z e
t h a t t h e D u e P r o c e s s Cl a u s e s M a n d a t e
S o m e F o r m of S ci e n t e r R e q ui r e m e n t f o r
C ri m e s wi t h S e ri o u s P e n al ti e s .
T hi s l a c k of g ui d a n c e h a s l e d t o a s plit of a ut h o rit y
a m o n g t h e f e d e r al ci r c uit s a n d st at e s u p r e m e c o u rt s.
T h e m aj o rit y of t h e s e c o u rt s t o a d d r e s s t h e i s s u e h a v e
h el d, at l e a st i n c a s e s n ot i n v ol vi n g p u bli c -w elf a r e
c ri m e s, t h at t h e f e d e r al D u e P r o c e s s Cl a u s e s m a n d at e
s o m e f o r m of s ci e nt e r r e q ui r e m e nt f o r c ri m e s wit h
s e ri o u s p e n alti e s.
1 . T h o s e d e ci si o n s st r e t c h b a c k t o at l e a st 1 9 6 0.
F o r e x a m pl e, a p pl yi n g
M o ri s s ett e
a n d ot h e r
p r e c e d e nt s, t h e n-J u d g e Bl a c k m u n a rti c ul at e d a
m ultif a ct o r t e st f o r c o n st r ui n g f e d e r al c ri mi n al
st at ut e s t h at o mit a s ci e nt e r el e m e nt. H ol d ri d g e v.
U nit e d St at e s , 2 8 2 F. 2 d 3 0 2 ( 8t h Ci r. 1 9 6 0). H e
a rti c ul at e d hi s H ol d ri d g e t e st a g ai n st t h e e x p r e s s
p o s si bilit y t h at, b ut f o r a p pli c ati o n of t h at i nt e r p r eti v e
f r a m e w o r k, a c ri mi n al st at ut e l a c ki n g a s ci e nt e r
el e m e nt mi g ht vi ol at e t h e D u e P r o c e s s C l a u s e. I d. at
3 1 0. T hi s t e st l ai d o ut s e v e r al f a ct o r s t o c o n si d e r i n
c o n cl u di n g t h at d u e p r o c e s s w a s n ot vi ol at e d: t h e
c ri mi n al st at ut e ( 1) “ s e e m s t o i n v ol v e w h at i s b a si c all y
a m att e r of p oli c y ”; ( 2) i m p o s e s a st a n d a r d t h at “i s,

15
u n d e r t h e ci r c u m st a n c e s, r e a s o n a bl e a n d a d h e r e n c e
t h e r et o p r o p e rl y e x p e ct e d of a p e r s o n ”; ( 3) i m p o s e s a
“p e n alt y [t h at] i s r el ati v el y s m all; ( 4) i m p o s e s a
“c o n vi cti o n [t h at] d o e s n ot g r a v el y b e s mi r c h ”; ( 5)
i n v ol v e s a “st at ut o r y c ri m e [t h at] i s n ot o n e t a k e n o v e r
f r o m t h e c o m m o n l a w”; a n d ( 6) “w h e r e [l e gi sl ati v e]
p u r p o s e i s s u p p o rti n g, t h e st at ut e c a n b e c o n st r u e d a s
o n e n ot r e q ui ri n g c ri mi n al i nt e nt. ” I bi d. F aili n g t o
s ati sf y t h e s e f a ct o r s, h o w e v e r, w o ul d b e “vi ol ati v e of
t h e d u e p r o c e s s cl a u s e. ” I bi d .
R el yi n g o n t h e n-J u d g e Bl a c k m u n’ s o pi ni o n i n
H ol d ri d g e a n d t hi s C o u rt’ s d e ci si o n s i n M o ri s s ett e a n d
L a m b e rt , t h e F o u rt h Ci r c uit h a s r e c o g ni z e d t h e
s ci e nt e r r e q ui r e m e nt t o s e p a r at el y i m pli c at e b ot h
i nt e r p r eti v e
and
c o nstit uti o n al
r e q ui r e m e nt s:
“ Alt h o u g h i n
m o st c a s e s
p a rti c ul a r s ci e nt e r
r e q ui r e m e nt s s e e m t o b e b a s e d si m pl y o n st at ut o r y
c o n st r u cti o n, t h e r e a r e u n d o u bt e dl y d u e p r o c e s s
r e st ri cti o n s o n t h e l e gi sl at u r e’ s p o w e r t o d efi n e c e rt ai n
c o n d u ct a s c ri mi n al a b s e nt p a r ti c ul a r s ci e nt e r
r e q ui r e m e nt s.” U nit e d St at e s v. F ol e y , 5 9 8 F. 2 d 1 3 2 3,
1 3 3 5 ( 4t h Ci r. 1 9 7 9) ( cit ati o n s o mitt e d).
I n t hi s t w o -p r o n g e d
m o d el, t h e i nt e r p r eti v e
c o n cl u si o n t h at a c ri mi n al off e n s e l a c k s a m e n s r e a
r e q ui r e m e nt still p r o m pt s t h e s e c o n d a r y q u e sti o n of
w h et h e r t h e st at ut e, s o c o n st r u e d,
vi ol at e s
c o n stit uti o n al d u e p r o c e s s r e q ui r e m e nt s . T h u s, in
St e p ni e w s ki
v. G a g n o n , t h e S e v e nt h
Ci r c uit
r e c o g ni z e d t h at, alt h o u g h it w a s b o u n d t o a c c e pt t h e
Wi s c o n si n S u p r e m e C o u rt’ s c o n st r u al of a st at e
c ri mi n al st at ut e a s i m p o si n g st ri ct li a bilit y wit h o ut
p r o of of c ri mi n al i nt e nt, it w a s still o bli g at e d t o
s e p a r at el y c o n si d e r “ w h et h e r t h at c o n st r u cti o n

16
vi ol at e s t h e d u e p r o c e s s cl a u s e of t h e U nit e d St at e s
C o n stit uti o n.” 7 3 2 F. 2 d 5 6 7, 5 6 9 ( 7t h Ci r. 1 9 8 4) ; s e e
al s o St at e v. St e p ni e w s ki , 3 1 4 N. W. 2 d 9 8, 9 8 ( Wi s.
1 9 8 2) ( n oti n g t h at m e n s r e a i s s u e “i n v ol v e s a st at ut o r y
c o n st r u cti o n a n d c o n stit uti o n al r e q ui r e m e nt s of d u e
p r o c e s s”).
2. S o m e c o u rt s , li k e t h e Fift h Ci r c uit i n U nit e d
St at e s v. G a r r ett , r e g a r d t h e D u e P r o c e s s C l a u s e a s
p r o vi di n g
a
c o n stit uti o n al
b a c k st o p t o t h e
i nt e r p r et ati o n of st at ut e s wit h o ut a n e x p r e s s m e n s r e a
r e q ui r e m e nt. I n t h ei r vi e w, a c o u rt r e s ol v e s t h e
i nt e r p r eti v e q u e sti o n of w h et h e r c ri mi n al li a bilit y
att a c h e s wit h o ut m e n s r e a a g ai n st a d u e p r o c e s s
b a c k d r o p u n d e r w hi c h a st at ut e s o i nt e r p r et e d w o ul d
b e c o n stit uti o n all y di sf a v o r e d. 4 9 8 4 F. 2 d 1 4 0 2, 1 4 1 1
( 1 9 9 3) ( c o n cl u di n g a n al y si s wit h c a uti o n t h at “ a
s e ri o u s d u e p r o c e s s vi ol ati o n w o ul d b e r ai s e d b y
a p pli c ati o n of t hi s st at ut e, w hi c h c a r ri e s f ai rl y
s u b st a nti al p e n alti e s, t o s o m e o n e w h o di d n ot k n o w
* * * t h at h e w a s [i n vi ol ati o n]”); s e e al s o St at e v.
Gi o r g etti , 8 6 8 S o. 2 d 5 1 2, 5 1 8 ( Fl a. 2 0 0 4) (“ B e c a u s e
A s s u mi n g t h at a st at ut e c o n st r u e d t o h a v e a n i m pli cit m e n s
r e a el e m e nt
w o ul d c o m p o rt
wit h d u e p r o c e s s, s e v e r al
j u ri s di cti o n s h a v e si m ult a n e o u sl y a c k n o wl e d g e d a n d a v oi d e d d u e
p r o c e s s c o n c e r n s b y r e a di n g s u c h a n el e m e nt i nt o t h e st at ut e.
S e e, e. g. , St at e v. St o n e , 4 6 7 N. W. 2 d 9 0 5, 9 0 7 ( S. D. 1 9 9 1)
(“ B e c a u s e w e h ol d t h at [ a d r u g off e n s e] r e q ui r e s k n o wl e d g e, w e
n e e d n ot r e a c h t h e q u e sti o n w h et h e r [t h e st at ut e] w o ul d vi ol at e
d u e p r o c e s s if it di d n ot r e q ui r e k n o wl e d g e.”); P a r d o v. St at e , 1 6 0
A. 3 d 1 1 3 6, 1 1 4 2 ( D el. 2 0 1 7) ( affi r mi n g l o w e r c o u rt’ s d u e p r o c e s s
r uli n g o n alt e r n at e g r o u n d t h at c h all e n g e d off e n s e “i s n ot a st ri ct
li a bilit y st at ut e”); St at e v. Ri c e , 6 2 6 P. 2 d 1 0 4, 1 1 0 ( Al a s k a 1 9 8 1)
( r e a di n g a m e n s r e a el e m e nt i nt o a m o o s e -h u nti n g r e g ul ati o n “t o
r e n d e r t h e r e g ul ati o n c o n stit uti o n al”).
4

17
s ci e nt e r i s oft e n n e c e s s a r y t o c o m p o rt wit h
r e q ui r e m e nt s, w e a s c ri b e t h e L e gi sl at u r e
i nt e n d e d t o i n cl u d e s u c h a r e q ui r e m e
U nit e d St at e s v. X -Cit e m e nt Vi d e o, I n c. ,
( 1 9 9 4)).

d u e pr oc ess
wit h h a vi n g
nt.”) ( citi n g
5 1 3 U. S. 6 4

T a ki n g t h at a n al y si s o n e st e p f u rt h e r, t h e Si xt h
Ci r c uit h a s c o n cl u d e d t h at, w h e r e a c ri mi n al st at ut e
c o ul d n ot b e c o n st r u e d t o c o nt ai n a s ci e nt e r
r e q ui r e m e nt, it vi ol at e d t h e d ef e n d a nt’ s c o n stit uti o n al
ri g ht s t o d u e p r o c e s s. U nit e d St at e s v. W ulff , 7 5 8 F.2 d
1 1 2 1, 1 1 2 4 -1 1 2 5 ( 6t h Ci r. 1 9 8 5) . I n r e a c hi n g t h at
c o n cl u si o n , t h e Si xt h Ci r c uit a d a pt e d t h e n-J u d g e
Bl a c k m u n’ s o pi ni o n i n H ol d ri d g e t o c r e at e a t e st u n d e r
w hi c h , n e v e rt h el e s s, “t h e eli mi n ati o n of t h e el e m e nt of
c ri mi n al i nt e nt d o e s n ot vi ol at e t h e D u e P r o c e s s
C l a u s e w h e r e ( 1) t h e p e n alt y i s r el ati v el y s m all, a n d
( 2) w h e r e c o n vi cti o n d o e s n ot g r a v el y b e s mi r c h.” I d. at
1 1 2 5. S e e al s o U nit e d St at e s v. Willi a m s , 8 7 2 F. 2 d 7 73,
7 7 7 ( 6t h Ci r. 1 9 8 9) ( e n d o r si n g W ulff ’ s “ d u e p r o c e s s
c o n c e r n s” a n d t e st). 5
5 S o m e ot h e r ci r c uit s h a v e r ej e ct e d t h e H ol d ri d g e a n d W ulff
d u e -p r o c e s s t e st s, w hil e still r e c o g ni zi n g t h e p o s si bilit y of d u e
p r o c e s s li mit ati o n s o n st at ut e s t h at l a c k s ci e nt e r r e q ui r e m e nt s.
S e e U nit e d St at e s v. E n gl e r , 8 0 6 F. 2 d 4 2 5, 4 3 3-3 5 ( 3 d Ci r. 1 9 8 6)
( el e cti n g n ot t o f oll o w eit h e r t h e H ol d ri d g e o r t h e W ulff t e st s b ut
r e c o g ni zi n g t h at t h e d u e p r o c e s s cl a u s e m a y s et s o m e li mit s o n
t h e i m p o siti o n of st ri ct c ri mi n al li a bilit y, b ut it h a s n ot s et f o rt h
d efi nit e g ui d eli n e s a s t o w h at t h o s e li mit s mi g ht b e.”) ( citi n g
U nit e d St at e s v. I nt’l Mi n e r al s & C h e m. C o r p. , 4 0 2 U. S. 5 5 8
( 1 9 7 1); a n d L a m b e rt , 3 5 5 U. S. at 2 2 8)). S e e al s o E n gl e r , 8 0 6 F. 2 d
at 4 3 5 (i nt e r p r eti n g U nit e d St at e s v. F r e e d , 4 0 1 U. S. 6 0 1, 6 0 8
( 1 9 7 1), a s di sti n g ui s hi n g b et w e e n t w o t y p e s of st ri ct li a bilit y
c ri m e s — t h o s e t h at “ m a y vi ol at e d u e p r o c e s s” a n d t h o s e t h at

18
C. A t L e a s t T h r e e Ci r c ui t s a n d
S u pre me
C o u rt
I n st e a d
I n cl u si o n of a S ci e n t e r El e m e
c o n s ti t u ti o n a l
R ul e of
C
O nl y .

O n e St at e
T r e at t h e
nt a s a N o n o n s t r u c ti o n

O n t h e ot h e r si d e of t h e s plit, s e v e r al j u ri s di cti o n s
h a v e i nt e r p r et e d t h e s ci e nt e r r e q ui r e m e nt t o b e
m e r el y a p ri n ci pl e of c o n st r u cti o n di v e st e d of
c o n stit uti o n al d u e p r o c e s s li mit ati o n s. M o st e x pli citl y,
a n d c o nt r a r y t o t h e F o u rt h Ci r c uit’ s d e ci si o n i n F ol e y ,
t h e N e b r a s k a S u p r e m e C o u rt h a s h el d t h at t hi s
C o u rt’ s d e ci si o n i n M o ri s s ett e m e r el y e st a bli s h e d
f a ct o r s “t o c o n si d e r w h e n c o n st r ui n g st at ut e s t h at
a r g u a bl y d o n ot r e q ui r e p r o of of m e n s r e a,” a n d “ di d
n ot
e st a bli s h t h o s e f a ct o r s a s p ri n ci pl e s of
c o n stit uti o n al l a w.” St at e v. P e ri n a , 8 0 4 N. W. 2 d 1 6 4,
1 7 0 ( 2 0 1 1) ( e m p h a si s a d d e d). Th u s r e a d, “ M o ri s s ett e
p r o vi d e s n o b a si s f o r st ri ki n g d o w n a st at ut e — j u st f o r
c o n st r ui n g it.” I d. at 1 7 1.
S e v e r al f ed e r al c o u rt s of a p p e al h a v e a d o pt e d t hi s
vi e w — at l e a st i n s of a r a s t h e y a p pl y a s ci e nt e r
r e q ui r e m e nt a s a n i nt e r p r eti v e p ri n ci pl e d e v oi d of a n y
w o ul d n ot b e c a u s e t h e y a r e p u bli c w elf a r e off e n s e s); U nit e d
St at e s v. U n s e r , 1 6 5 F. 3 d 7 5 5, 7 6 1-6 4 ( 1 0t h Ci r. 1 9 9 9) ( c ri m e at
i s s u e w a s a “ p u bli c w elfa r e off e n c e”); U nit e d St at e s v. St e p a n et s ,
9 8 9 F. 3 d 8 8, 9 8 ( 1 st Ci r. 2 0 2 1) ( s a m e); S e e al s o C o m. v. J a c k s o n ,
3 4 4 N. E. 2 d 1 6 6, 1 7 4 ( 1 9 7 6), s e e al s o St at e v. M o u ntj o y , 8 9 1 P. 2 d
3 7 6, 3 8 5 ( K a n. 1 9 9 5) ( h ol di n g t h at a p u bli c w elf a r e off e n s e
wit h o ut a n “ el e m e nt of c ri mi n al i nt e nt” d o e s n ot vi ol at e d u e
p r o c e s s); cf. St at e v. M c D o w ell , 3 1 2 N. W. 2 d 3 0 1, 3 0 6 ( N. D. 1 9 8 1)
( h ol di n g t h at r e g ul at o r y st at ut e di d n ot off e n d e r d u e p r o c e s s b y
i m p o si n g a fi n e o r i m p ri s o n m e nt wit h o ut a m e n s r e a
r e q ui r e m e nt).

19
c o n stit uti o n al d u e p r o c e s s li mit ati o n s. F o r e x a m pl e, i n
U nit e d St at e s v. Fi g u e r o a , t h e S e c o n d Ci r c uit a p pli e d
t h e St a pl e s m e n s r e a r e q ui r e m e nt a n d t h e p u bli c
w elf a r e e x c e pti o n s ol el y a s p ri n ci pl e s of c o n st r u cti o n,
m a ki n g n o m e nti o n of a n y li n g e ri n g d u e p r o c e s s
li mit ati o n s. 1 6 5 F. 3 d 1 1 1 (1 9 9 8); s e e, e. g. , i d. at 1 1 6
( r ef e r ri n g t o t h e c ri mi n al k n o wl e d g e r e q ui r e m e nt a s
b ot h a “ p r e s u m pti o n” a n d “ p ri n ci pl e of c o n st r u cti o n”);
i d. at 1 1 7 ( a n al y zi n g t h e “i nt e r p r eti v e p ri n ci pl e s
e m pl o y e d i n t h e c a s e of p u bli c w elf a r e c ri m e s”).
Si mil a rl y, i n U nit e d St at e s v. N g u y e n , t h e Ni nt h
Ci r c uit n ot e d t h at “ c ri mi n al off e n s e s r e q ui ri n g n o
m e n s r e a h a v e a g e n e r all y di sf a v o r e d st at u s,” b ut di d
s o i n t h e c o nt e xt of “i m pl yi n g a m e n s r e a el e m e nt”
wit h o ut i n v o ki n g d u e p r o c e s s. 7 3 F. 3 d 8 8 7, 8 9 0 -8 9 1
( 1 9 9 5).
Li k e wi s e, t h e P e n n s yl v a ni a S u p r e m e C o u rt h a s
d e m o n st r at e d t h e s a m e f o c u s o n i nt e r p r eti v e
p ri n ci pl e s t o t h e e x cl u si o n of d u e p r o c e s s li mit ati o n s,
a p p r o a c hi n g t h e a b s e n c e of a n “ e x pli cit m e n s r e a
r e q ui r e m e nt” i n a b ri b e r y st at ut e s ol el y a s a n
i nt e r p r eti v e q u e sti o n, r el yi n g o n H ol d ri d g e , St a pl e s ,
a n d M o ri s s ett e wit h o ut a n y m e nti o n of d u e p r o c e s s.
C o m. v. P a r m a r , 7 1 0 A. 2 d 1 0 8 3, 1 0 8 8-1 0 9 0 ( P a. 1 9 9 8) .
* * * * *
I n s h o rt, t h e r e i s a s u b st a nti al c o nfli ct o n t h e fi r st
q u e sti o n p r e s e nt e d — o n e t h at l e a d s t o diff e ri n g
o ut c o m e s i n diff e r e nt j u ri s di cti o n s. F o r e x a m pl e, if
P etiti o n e r h a d b e e n p r o s e c ut e d f o r a si mil a r c ri m e i n
a f e d e r al c o u rt i n t h e Si xt h Ci r c uit r at h e r i n I d a h o
st at e c o u rt, h e al m o st c e rt ai nl y w o ul d h a v e h a d t h e
b e n efit of a s ci e nt e r r e q ui r e m e nt — a n d t h e r ef o r e

20
w o ul d al m o st c e rt ai nl y h a v e b e e n a c q uitt e d. O nl y t hi s
C o u rt c a n r e s ol v e t h at c o nfli ct a n d t h e r e b y b ri n g a
m e a s u r e of f ai r n e s s t o c ri mi n al d ef e n d a nt s f a ci n g
p r o s e c uti o n u n d e r f el o n y st at ut e s t h at l a c k a n y
s ci e nt e r r e q ui r e m e nt.
I I. T h e L o w e r
C o u rt ’ s
R ef u s al t o A d d r e s s
P e ti ti o n e r’ s A r g u m e n t O n t h e Fi r s t Q u e s ti o n
I n d e p e n d e n tl y Vi ol a t e d t h e D u e P r o c e s s
Cl a u s e a n d Li k e wi s e W a r r a n t s R e vi e w .
T hi s C o u rt ’ s r ul e s f u rt h e r p r o vi d e t h at o n e of t h e
b a s e s f o r g r a nti n g r e vi e w i s t h at “ a st at e c o u rt * * * h a s
d e ci d e d a n i m p o rt a nt f e d e r al q u e sti o n i n a w a y t h at
c o nfli ct s wit h r el e v a nt d e ci si o n of t hi s C o u rt.” S u p. Ct.
R. 1 0( c) . T h at i s t r u e h e r e: F o r o v e r a c e nt u r y a n d a
h alf, t hi s C o u rt h a s c o n si st e ntl y r e c o g ni z e d t h at a
f u n d a m e nt al a s p e ct of d u e p r o c e s s a s g u a r a nt e e d b y
t h e C o n stit uti o n i s t h e o p p o rt u nit y t o b e h e a r d p ri o r
t o t h e d e p ri v ati o n of lif e, li b e rt y, a n d p r o p e rt y. S e e,
e. g., B al d wi n v. H al e , 6 8 U. S. ( 1 W all.) 2 2 3, 2 3 3 ( 1 8 6 3);
G r a n ni s v. O r d e a n , 2 3 4 U. S. 3 8 5, 3 9 4 ( 1 9 1 4). Y et t h e
I d a ho
S u pr e m e
C o u rt vi ol at e d
t hi s
b e dr oc k
c o n stit uti o n al ri g ht b y h ol di n g t h at P etiti o n e r h a d n ot
r ai s e d a n a r g u m e nt h e pl ai nl y h a d — a p p a r e ntl y s o
t h at t h e c o u rt di d n ot h a v e t o r e a c h hi s a b o v e m e nti o n e d d u e p r o c e s s -s ci e nt e r a r g u m e nt.
T h e r e c a n b e n o d o u bt t h at P etiti o n e r p r e s e r v e d
t hi s a r g u m e nt b y m o r e t h a n s uffi ci e ntl y p r e s e nt i n g it
t o t h e l o w e r c o u rt. I n hi s O p e ni n g B ri ef at t h e I d a h o
S u p r e m e C o u rt, P etiti o n e r s p e nt m o r e t h a n fi v e p a g e s
f ull y a r g ui n g t h at t h e r el e v a nt st at e st at ut e— I. C.
§ 3 6 -1 4 0 1 ( c)( 3)— l a c ke d a s ci e nt e r r e q ui r e m e nt i n
vi ol at i o n of t h e 1 4t h A m e n d m e nt’ s D u e P r o c e s s
Cl a u s e. P et. A p p. 3 9 a -4 5 a . P etiti o n e r c o nt e n d e d t h at

21
t hi s d efi ci e n c y all o w e d t h e St at e t o c o n vi ct hi m of a
f el o n y wit h o ut h a vi n g t o p r o v e hi s st at e of mi n d at t h e
ti m e t h at t h e c ri m e w a s c o m mitt e d. Y et t h at c o u rt
r ef u s e d t o a d d r e s s t hi s a r g u m e nt o n t h e g r o u n d t h at
“H u c k a b a y’ s st ri ct li a bilit y a r g u m e nt w a s m e r el y
m e nti o n e d i n p a s si n g .” P et. A p p. 1 4 a. T h e r e c o r d
r ef ut e s t h e c o u rt’ s a s s e rti o n . T hi s it s elf r ai s e s a
s e ri o u s d u e p r o c e s s i s s u e t h at i s i n d e p e n d e ntl y w o rt h y
of t hi s C o u rt’ s r e vi e w — o r at l e a st a G V R t h at wi ll gi v e
t h e I d a h o S u p r e m e C o u rt t h e o p p o rt u nit y t o a d d r e s s
t h e d u e p r o c e s s -s ci e nt e r i s s u e i n t h e fi r st i n st a n c e .
A. T hi s C o u r t’ s P r e c e d e n t E s t a bli s h e s t h a t
P e r s o n s D e p ri v e d of a Ri g h t b y t h e S t a t e
M u s t b e Gi v e n t h e O p p o r t u ni t y t o b e
H e a r d.
O v e r a c e nt u r y a n d a h alf a g o, t hi s C o u rt pl ai nl y
n ot e d: “ P a rti e s w h o s e ri g ht s a r e t o b e aff e ct e d a r e
e ntitl e d t o b e h e a r d.” B al d wi n , 6 8 U. S. at 2 3 3. J u st
o v e r fift y y e a r s l at e r, t h e C o u rt a g ai n p r o cl ai m e d t h at
“[t]h e f u n d a m e nt al r e q ui sit e of d u e p r o c e s s of l a w i s
t h e o p p o rt u nit y t o b e h e a r d. ” G r a n ni s , 2 3 4 U. S. at 3 9 4
( cl e a n e d u p). A n d al m o st h alf a c e nt u r y a g o, t hi s C o u rt
s ai d t h at “s o m e f o r m of h e a ri n g i s r e q ui r e d b ef o r e a n
i n di vi d u al i s fi n all y d e p ri v e d of a p r o p e rt y [ o r li b e rt y]
i nt e r e st.” M at h e w s v. El d ri d g e , 4 2 4 U. S. 3 1 9, 3 3 3
( 1 9 7 6).
1. T hi s ri g ht i s a “ b a s i c a s p e ct of t h e d ut y of
g o v e r n m e nt t o f oll o w a f ai r p r o c e s s of d e ci si o n m a ki n g
w h e n it a ct s t o d e p ri v e a p e r s o n of hi s p o s s e s si o n s ,”
n ot t o m e nti o n hi s li b e rt y, t h e C o u rt a s s u r e d i n
F u e nt e s v. S h e vi n , 4 0 7 U. S. 6 7, 8 0 ( 1 9 7 2). W h at e v e r
el s e d u e p r o c e s s, i n all it s m aj e sti c g e n e r aliti e s, mi g ht
m e a n, it c e rt ai nl y c o v e r s t h e o p p o rt u nit y t o b e h e a r d —

22
wit h o ut w hi c h d u e p r o c e s s’ n oti c e r e q ui r e m e nt w o ul d
b e f util e. S e e M ull a n e v. C e nt r al H a n o v e r B a n k &
T r u st C o. , 3 3 9 U. S. 3 0 6, 3 1 4 ( 1 9 5 0).
T h e o p p o rt u nit y t o b e h e a r d e xi st s “n ot o nl y t o
e n s u r e a b st r a ct f ai r pl a y t o t h e i n di vi d u al. It s p u r p o s e,
m o r e p a rti c ul a rl y, i s t o p r ot e ct hi [ m]” f r o m t h e St at e’ s
“ a r bit r a r y e n c r o a c h m e nt[ s].” F u e nt e s , 4 0 7 U. S. at 8 0 8 1. T h e ri g ht t h u s e xi st s t o p r e v e nt “ s u b st a nti v el y
u nf ai r a n d si m pl y mi st a k e n d e p ri v ati o n s of [li b e rt y
a n d] p r o p e rt y i nt e r e st s .” I d . at 8 1. S e e al s o J oi nt A nti F a s ci st R ef u g e e C o m mitt e e v. M c G r at h , 3 4 1 U. S. 1 2 3,
1 7 0 -1 7 1 ( 1 9 5 1)
( F r a n kfu rt e r,
J.,
c o n c u r ri n g)
(“[ F]ai r n e s s c a n r a r el y b e o bt ai n e d b y s e c r et, o n e -si d e d
d et e r mi n ati o n of f a ct s d e ci si v e of ri g ht s. * * * [ A n d n] o
b ett e r i n st r u m e nt h a s b e e n d e vi s e d f o r a r ri vi n g at
t r ut h t h a n t o gi v e a p e r s o n i n j e o p a r d y of s e ri o u s l o s s
n oti c e of t h e c a s e a g ai n st hi m a n d o p p o rt u nit y t o m e et
it.”).
T hi s
C o u rt h a s h a d
a m pl e o c c a si o n a n d
o p p o rt u nit y t o b a c kt r a c k f r o m t hi s c o r e el e m e nt of d u e
p r o c e s s . B ut it h a s r e s ol ut el y d e cli n e d t o d o s o — e v e n
w h e n t h e N ati o n w a s at w a r a n d g r a v e n ati o n al
s e c u rit y i nt e r e st s w e r e i n v ol v e d. S e e, e. g. , H a m di v.
R u m sf el d , 5 4 2 U. S. 5 0 7, 5 3 7 ( 2 0 0 4) ( pl u r alit y o pi nio n)
(i n si sti n g o n a n o p p o rt u nit y t o b e h e a r d i n “ a
c o n stit uti o n all y a d e q u at e f a ctfi n di n g b ef o r e a n e ut r al
d e ci si o n m a k e r .”
H a m di
“ r e affi r m[ e d] * * * t h e
f u n d a m e nt al n at u r e of a citi z e n’ s ri g ht t o b e f r e e f r o m
i n v ol u nt a r y c o nfi n e m e nt * * * wit h o ut d u e p r o c e s s of
l a w,” i n cl u di n g a m e a ni n gf ul o p p o rt u nit y t o b e h e a r d.
I d . at 5 3 1.
2. H a m di l a y s o ut a h el pf ul p at h. R el e v a nt t o o u r
i n q ui r y, th e H a m di pl u r alit y n ot e d t h at “[ a] n y p r o c e s s

23
i n w hi c h t h e [ g o v e r n m e ntal d e ci si o n -m a k e r’ s] f a ct u al
a s s e rti o n s g o w h oll y u n c h all e n g e d o r a r e si m pl y
p r e s u m e d c o r r e ct wit h o ut a n y o p p o rt u nit y f o r t h e
[ d ef e n d a nt]
to
d e m o n st r at e
ot h e r wi s e
f all s
c o n stit uti o n all y s h o rt. ” 5 4 2 U. S. at 5 3 7. T h e s a m e
d o u btl e s s g o e s f o r a n a p p ell at e p r o c e d u r e t h at r ef u s e s
t o e v e n h e a r t h e a p p ell a nt’ s a r g u m e nt— e v e n w h e n t h e
a p p ell a nt h a s c o m pli e d wit h all p r o c e d u r al a n d
s u b st a nti v e r ul e s . C o n s e q u e ntl y, t h e n oti c e of a
h e a ri n g a n d t h e o p p o rt u nit y t o b e h e a r d “ m u st b e
g r a nt e d at a m e a ni n gf ul ti m e a n d i n a m e a ni n gf ul
m a n n e r.”
A r m st r o n g v. M a n z o , 3 8 0 U. S. 5 4 5, 5 5 2
( 1 9 6 5). A n d u n d e r t h at p ri n ci pl e, t h e I d a h o S u p r e m e
C o u rt’ s t r e at m e nt of P etiti o n e r’ s s ci e nt e r a r g u m e nt
f all s w ell s h o rt of d u e p r o c e s s.
B. A P e r s o n’ s O p p o r t u ni t y t o b e H e a r d i s
M e a ni n gl e s s if t h e C o u r t
R ef u s e s t o
C o n si d e r W h a t H e i s S a yi n g.
1. S o m e of t h e N ati o n’ s g r e at e st j u ri st s h a v e
c h a m pi o n e d t h e o p p o rt u nit y t o b e h e a r d p r e ci s el y
b e c a u s e n o p r o c e s s c o ul d b e a d e q u at e wit h o ut it.
J u d g e F ri e n dl y , f o r e x a m pl e, e n u m e r at e d el e v e n
el e m e nt s of d u e p r o c e s s i n hi s s e mi n al a rti cl e o n t h at
t o pi c. S e e H e n r y F ri e n dl y, S o m e Ki n d of H e a ri n g , 1 2 3
U.
P a.
L.
R e v.
1 2 6 7,
1279–1295
( 1 9 7 5).
U n s u r p ri si n gl y, s e v e r al of J u d g e F ri e n dl y’ s el e m e nt s
di r e ctl y i nf o r m t h e o p p o rt u nit y t o b e h e a r d. T h o s e
el e m e nt s,
i n cl u di n g gi vi n g t h e
s u bj e ct t h e
“ o p p o rt u nit y t o p r e s e nt r e a s o n s w h y t h e p r o p o s e d
a cti o n s h o ul d n ot b e t a k e n” a g ai n st hi m , w o ul d b e of
n o v al u e if t h e d e ci si o n m a k e r w e r e di si n cli n e d t o
c o n si d e r t h o s e r e a s o n s wit h o ut a n y
a p p a r e nt
j u stifi c ati o n. I d . at 1 2 8 1 (cl e a n e d u p ).

24
N o r w o ul d t h e ri g ht “t o h a v e [t h e] de ci si o n [ b e]
b a s e d o nl y o n t h e e vi d e n c e p r e s e nt e d ” m a k e a n y s e n s e
if t h e d e ci si o n m a k e r c o ul d j u st i g n o r e t h e a s s e rti o n s
t h e s u bj e ct of t h e p o s si bl e d e p ri v ati o n h a s a d v a n c e d.
I d . at 1 2 8 2 (cl e a n e d u p ). M o r e o v e r, b ot h “t h e m a ki n g
of a r e c o r d a n d a st at e m e nt of r e a s o n s” w o ul d b e
e m pt y f o r m aliti e s u n d e r t h e s e ci r c u m st a n c e s a s w ell.
I d . at 1 2 9 1 (cl e a n e d u p ). A n d n o n e of t hi s w o ul d sit
w ell wit h t h e C o u rt’ s t r a diti o n al m o d el of a s s e s si n g
d u e p r o c e s s vi ol ati o n s. S e e, e. g. , Ct y. of S a c r a m e nt o,
C alif. v. L e wi s , 5 2 3 U. S. 8 3 3, 8 4 6-8 4 7 ( 1 9 9 8)
( r e affi r mi n g t h e d u e p r o c e s s p r o s c ri pti o n o n
g o v e r n m e nt al c o n d u ct t h at “ s h o c k s t h e c o n s ci e n c e”) .
M o r e o v e r , whil e t h e C o u rt h a s a dj u st e d t h e
d e m a n d s of d u e p r o c e s s i n a f a ct -s p e cifi c, c a s e -b y -c a s e
m a n n e r, it h a s n e v e r d e vi at e d f r o m e n s u ri n g t h at t h e
p e r s o n w h o s e p r o p e rt y, li b e rt y, m a rit al o r p a r e nt al
st at u s, li v eli h o o d, e c o n o mi c s u st e n a n c e, o r lif e it s elf i s
at st a k e i s m e a ni n gf ull y h e a r d. S e e , e. g. , Wil ki n s o n v.
A u sti n , 5 4 5 U. S. 2 0 9 ( 2 0 0 5); Cit y of L o s A n g el e s, C alif.
v. D a vi d , 5 3 8 U. S. 7 1 5 ( 2 0 0 3); D u s e n b e r y v. U nit e d
St at e s , 5 3 4 U. S. 1 6 1 ( 2 0 0 2); M. L. B. v. S. L. J. , 5 1 9 U. S.
1 0 2 ( 1 9 9 6) ; B o d di e v. C o n n ., 4 0 1 U. S. 3 7 1 ( 1 9 7 1).
T h e C o u rt’ s r eli a n c e o n t h e o p p o rt u nit y t o b e h e a r d
h a s e v e n i nf o r m e d it s a p p r o a c h t o st r u ct u r al
c o n stit uti o n al m att e r s s u c h a s f e d e r ali s m. S e e L a n e ,
5 4 1 U .S . at 5 2 3 ( “T h e D u e P r o c e s s Cl a u s e al s o
r e q ui r e s t h e St at e s t o aff o r d c e rt ai n ci vil liti g a nt s a
m e a ni n gf ul o p p o rt u nit y t o b e h e a r d b y r e m o vi n g
o b st a cl e s t o t h ei r f ull p a rti ci p ati o n i n j u di ci al
p r o c e e di n g s. ”) ( cl e a n e d u p). I n s h o rt, t h e o p p o rt u nit y
t o b e h e a r d al w a y s h a s b e e n c e nt r al t o o u r
c o n st it uti o n al t r a diti o n a n d i s “p a rt of o u r n ati o n al

25
c ult u r e .” Di c k e r s o n v. U nit e d St at e s , 5 3 0 U. S. 4 2 8, 4 4 3
( 2 0 0 0). It m u st b e h o n o r e d i n r e alit y, n ot j u st i n
t h e o r y.
2. H e r e, a s a r e s ult of t h e I d a h o S u p r e m e C o u rt’ s
e r r o r, P etiti o n e r s uff e r e d b o t h a d e p ri v ati o n of
p h y si c al li b e rt y a n d r e p ut ati o n al h a r m s o s e v e r e t h at
e v e n n o w it eff e cti v el y d e p ri v e s hi m of t h e ri g ht t o
t r a v el a b r o a d . S e e s u p r a n ot e 3 .P etiti o n e r h a s a p e r
s e ri g ht t o v a c at u r a n d r e m a n d — if n ot o ut ri g ht
r e v e r s al — b e c a u s e of t hi s e r r o r .
T hi s C o u rt h a s oft e n e x p r e s s e d a p e r s e r ul e
f a v o ri n g a ut o m ati c r e v e r s al w h e n a d ef e n d a nt i s
d e ni e d t h e o p p o rt u nit y t o b e h e a r d. N ot a bl y, i n c a s e s
w h e r e e v e n a ci vil d ef e n d a nt h a s b e e n gi v e n n oti c e b ut
d e p ri v e d of a n o p p o rt u nit y t o r e s p o n d t o a s s e rt hi s
l a c k of li a bilit y, t hi s C o u rt h a s e nf o r c e d t h e d u e
p r o c e s s p r o hi biti o n a g a i n st s u bj e cti n g s o m e o n e t o
j u d g m e nt
wit h o ut gi vi n g t h e m a
m e a ni n gf ul
o p p o rt u nit y “t o r e s p o n d a n d b e h e a r d.” N el s o n v.
A d a m s U S A, I n c ., 5 2 9 U. S. 4 6 0, 4 6 6-4 6 7 ( 2 0 0 0). I n
s u c h c a s e s, t h e C o u rt h a s n ot e n g a g e d i n a b al a n ci n g
i n q ui r y. S e e i d. at 4 6 6-6 8. F o r e x a m pl e, i t w a s
s uffi ci e nt f o r t h e N el s o n C o u rt t h at th e d e ci si o n m a k e r n e v e r g a v e t h e d ef e n d a nt a c h a n c e t o s a y hi s
pi e c e, a n d t h at w a s a ut o m ati c all y r e v e r si bl e e r r o r. S e e
i d. at 4 6 7-4 6 8. A ft e r ob s e r vi n g t h at “ N el s o n w a s n e v e r
aff o r d e d a p r o p e r o p p o rt u nit y t o r e s p o n d t o t h e cl ai m
a g ai n st hi m ,” t h e C o u rt o b s e r v e d t h at a “[ p]r o c e d u r e
of t hi s st yl e h a s b e e n q u e sti o n e d e v e n i n s y st e m s, r e al
a n d i m a gi n a r y, l e s s c o n c e r n e d t h a n o u r s wit h t h e
ri g ht t o d u e p r o c e s s. ” I d . at 4 6 8.
3. A s wit h ot h e r “ st r u ct u r al d ef e ct s” i n c ri mi n al
p r o c e d u r e, U nit e d St at e s v. G o n z al e z -L o p e z , 5 4 8 U. S.

26
1 4 0, 1 4 9 ( 2 0 0 6) , t h e I d a h o S u p r e m e C o u rt’ s e r r o r w a s
n ot a o n e -off mi st a k e “i n [ c o u rt] p r o c e s s[ e s],” A ri z o n a
v. F ul mi n a nt e , 4 9 9 U. S. 2 7 9, 3 0 9-3 1 0 ( 1 9 9 1) . R at h e r,
it “ d ef[i e d] a n al y si s b y ‘ h a r ml e s s -e r r o r’ st a n d a r d s”
b e c a u s e it “ aff e ct e d t h e [ v e r y] f r a m e w o r k wit hi n w hi c h
t h e [ st at e c o u rt s a dj u di c at e d a n d u p h el d hi s
c ul p a bilit y]. ” I bi d .
T hi s b e c o m e s e v e n cl e a r e r wit h a n e xt r e m e
h y p ot h eti c al. I m a gi n e t h at a st at e c o u rt d e ni e s a
c ri mi n al d ef e n d a nt t h e a bilit y t o fil e a si n gl e p a g e of
b ri efi n g o r utt e r e v e n o n e w o r d i n o r al a r g u m e nt
( eit h e r hi m s elf o r t h r o u g h c o u n s el), b ef o r e r uli n g
a g ai n st t h at d ef e n d a nt . Cl e a rl y , t h e ri g ht to b e h e a r d
h a s b e e n vi ol at e d.
Li k e wi s e, h e r e, t h at ri g ht i s n o l e s s vi ol at e d w h e n
t h e l o w e r c o u rt d o e s t h e f u n cti o n al e q ui v al e nt of
s h utti n g d o w n a n a r g u m e nt b y r ef u si n g t o r e a c h o n e
of t h e a r g u m e nt s P etiti o n e r c o m p r e h e n si v el y r ai s e d —
o n t h e s p e ci o u s g r o u n d s t h at h e h a d n ot a ct u all y
r ai s e d it. T h e C o u rt s h o ul d g r a nt c e rti o r a ri i n t hi s
c a s e — a n d at l e a st a G V R — t o m a k e t hi s p e r s e r ul e of
r e v e r si bl e e r r o r e x pli cit. 6

E v e n if a p e r s e r ul e of a ut o m ati c r e v e r s al w e r e
i n a p p r o p ri at e h e r e, t h e C o u rt’ s t r a diti o n al M at h e w s f r a m e w o r k
t o e v al u at e w h et h e r a p e r s o n h a s b e e n d e p ri v e d of hi s p r o c e d u r al
d u e p r o c e s s ri g ht s e a sil y l e a d s t o t h e s a m e c o n cl u si o n. 4 2 4 U. S.
at 3 3 5. U n d e r M at h e w s , c o u rt s b al a n c e t h e p ri v at e i nt e r e st
h a r m e d, t h e g o v e r n m e nt’ s i nt e r e st, “t h e ri s k of e r r o n e o u s
d e p ri v ati o n,” a n d t h e “ p r o b a bl e v al u e, if a n y, o f a d diti o n al o r
s u b stit ut e s af e g u a r d s.” I bi d . P etiti o n e r’ s i nt e r e st i n h a vi n g hi s
a r g u m e nt s p r o p e rl y c o n si d e r e d t o a v oi d a f el o n y c o n vi cti o n t o w e r
o v e r t h e n o n e xi st e nt g o v e r n m e nt i nt e r e st i n i g n o ri n g a r g u m e nt s
6

27

C. L e t ti n g t h e I d a h o S u p r e m e C o u r t’ s E r r o r
S t a n d i n t hi s C a s e w o ul d b e a n E g r e gi o u s
Mi s c a r ri a g e of J u s ti c e .
T h e I d a h o S u p r e m e C o u rt c o m mitt e d a bl at a nt
f a ct u al e r r o r i n t hi s c a s e. D e s pit e s p e n di n g m o r e t h a n
fi v e p a g e s b ri efi n g t h e d u e p r o c e s s i s s u e, P etiti o n e r
n e v e r w a s h e a r d o n t hi s i s s u e b y I d a h o’ s hi g h e st c o u rt.
P etiti o n e r’ s s ci e nt e r -d u e p r o c e s s a r g u m e nt w e nt
st r ai g ht i nt o a bl a c k h ol e of t h e c o u rt’ s o w n m a ki n g .
H e n e v e r w ai v e d o r f o rf eit e d t hi s i s s u e, f o r h e r ai s e d it
a s a n i s s u e p r e s e nt e d i n hi s O p e ni n g B ri ef a n d a r g u e d
it w ell. P et. A p p. 3 0 a, 3 9 a -4 5 a . T h e I d a h o c o u rt’ s
d e ci si o n t o f o r e g o a d d r e s si n g t hi s i s s u e i s a g ri e v o u s
e r r o r f o r w hi c h it, a n d o nl y it, i s r e s p o n si bl e.
W h at t h e I d a h o S u p r e m e C o u rt di d h e r e i s i n d e e d
a n “ e xt r e m e c a s e[].” C a p e rt o n v. A. T. M a s s e y C o al C o.,
I n c., 5 5 6 U. S. 8 6 8, 8 8 7 ( 2 0 0 9) . A n d t hi s C o u rt h a s
n e v e r h e sit at e d t o r e v e r s e s u c h mi s c a r ri a g e s of j u sti c e.
It s h o ul d n ot h e sit at e t o d o s o h e r e eit h e r. T h e f a ct
t h at a p r e ci s e c o nfli ct i n t h e l o w e r c o u rt s o n t hi s i s s u e
( Q u e sti o n 2) i s diffi c ult t o s p ot i s att ri b ut a bl e t o t h e
f a ct t h at mi st a k e s of t hi s e g r e gi o u s c h a r a ct e r a n d

p r o p e rl y r ai s e d i n it s c o u rt s. S e e F o u c h a v. L o ui si a n a , 5 0 4 U. S.
7 1, 8 0 ( 1 9 9 2) . F u rt h e r, t h e “ ri s k of e r r o n e o u s d e p ri v ati o n” of
P etiti o n e r’ s li b e rt y i nt e r e st i s at it s p e a k h e r e . M at h e w s, 4 2 4 U. S.
at 3 3 5. S e e al s o J o n e s v. U nit e d St at e s , 4 6 3 U. S. 3 5 4, 3 6 1 ( 1 9 8 3)
(“I t i s cl e a r t h at c o m mit m e nt f o r a n y p u r p o s e c o n stit ut e s a
si g nifi c a nt d e p ri v ati o n of li b e rt y t h at r e q ui r e s d u e p r o c e s s
p r ot e cti o n .”). A n y c o u nt e r cl ai m s b y t h e g o v e r n m e nt of
a d mi ni st r ati v e c o n v e ni e n c e o r effi ci e n c y m a k e n o s e n s e h e r e. A n d
t h e v al u e of r e a c hi n g P etiti o n e r’ s a r g u m e nt s i s g r e at.

28
m a g nit u d e d o n ot o r di n a ril y h a p p e n. C o n s e q u e ntl y,
t h e C o u rt s h o ul d g r a nt c e rti o r a ri a n d r e v e r s e t h e
j u d g m e nt of t h e I d a h o S u p r e m e C o u rt — at l e a st i n t h e
f o r m of a G V R.
I I I.

T he
Q u e s ti o n s
P r e s e nt e d
Are
N a ti o n wi d e a n d G r o wi n g I m p o r t a n c e .

T h e q u e sti o n s p r e s e nt e d,
m o r e o v e r,
n ati o n wi d e a n d i n c r e a si n g i m p o rt a n c e.

ar e

of
o f

1. F o r e x a m pl e, s ci e nt e r a n d m e n s r e a el e m e nt s
w er e
o nc e
h all m a r k s
of
A m e ri c a n c ri mi n al
j u ri s p r u d e n c e. Si n c e t h e 1 9 3 0 s, t h e a d v e nt of v a g u el y
d efi n e d p u bli c w elf a r e c ri m e s a n d t h e c o difi c ati o n of
c ri mi n al c o m m o n l a w e r o d e d t h e s e el e m e nt s at b ot h
t h e f e d e r al a n d st at e l e v el s. N o w, si g nifi c a nt
p e r c e nt a g e s of st at e a n d f e d e r al c ri mi n al l a w s r et ai n
n o o r n e gli gi bl e s ci e nt e r r e q ui r e m e nt s.
P r of e s s o r F r a n ci s S a y r e’ s s e mi n al 1 9 3 3 C ol u m bi a
L a w R e vi e w a rti cl e o utli ni n g p u bli c w elf a r e off e n s e s
a r g u a bl y s p a r k e d t h e b e gi n ni n g of s ci e nt e r’ s d e cli n e.
S e e F r a n ci s S a y r e, P u bli c W elf a r e Off e n s e s , 3 3 C ol u m.
L. R e v. 5 5, 8 3 ( 1 9 3 3). Di s c u s si n g S a y e r’ s a rti cl e,
P r of e s s o r J o h n S. B a k e r, J r. o b s e r v e d t h at “ [t]h e
u n d efi n e d t e r m ‘p u bli c w elf a r e off e n s e ’ e x p a n d e d i n
t h e p r o c e s s of j u stif yi n g ot h e r st ri ct-li a bilit y st at ut e s.”
J o h n S. B a k e r, J r., M e n s R e a a n d St at e C ri m e s , T h e
F e d e r ali st
S o ci et y
4
( S e pt.
4,
2 0 1 2),
htt p s://ti n y u rl. c o m/ 3 4 a k b y e b . S a y e r’ s w o r k, i n ot h e r
w o r d s, w a s u s e d t o j u stif y st at ut e s wit h o ut s ci e nt e r
r e q ui r e m e nt s t h at w e r e n ot p u bli c w elf a r e st at ut e s i n
t h e d o ct ri n al s e n s e. A d diti o n all y, f o r s e v e r al r e a s o n s,
c o difi c ati o n eff o rt s s u c h a s t h e M o d el P e n al C o d e ,

29
“ a ct u all y h a s h a d t h e u ni nt e n d e d c o n s e q u e n c e of
e r o di n g t h e p ri n ci pl e of m e n s r e a i n st at e c ri mi n al
l a w.” I d. at 6. T h e d et e ri o r ati o n i s e vi d e nt at t h e
f e d e r al a n d st at e l e v el s.
U nf o rt u n at el y, “[i]t’ s n ot e v e n cl e a r h o w m a n y
f e d e r al c ri mi n al st at ut e s a r e o n t h e b o o k s.” J o h n
Vill a s e n o r, O v e r -c ri mi n ali z ati o n a n d
Me ns Re a
R ef o r m: A P ri m e r , B r o o ki n g s I n stit uti o n ( D e c. 2 2,
2 0 1 5), htt p s://ti n y u rl. c o m/ m m wt p k z 2 . A s o n e r eti r e d
J u sti c e D e p a rt m e nt offi ci al p ut it, “[ y] o u will h a v e di e d
a n d r e s u r r e ct e d t h r e e ti m e s” b ef o r e c o u nti n g t h e f ull
n u m b e r of f e d e r al c ri mi n al l a w s . G a r y Fi el d s a n d J o h n
R. E m s h will e r, M a n y F ail e d Eff o rt s t o C o u nt N ati o n’ s
F e d e r al C ri mi n al L a w s , T h e W all St r e et J o u r n al ( J ul
2 3,
2 0 1 1),
htt p s://ti n y u rl. c o m/ 2j b c e d p c
( q u oti n g
R ol a n d G ai n e r) . A st u d y f r o m st r a n g e i d e ol o gi c al
b e df ell o w s — t h e
H e rit a g e
F o u n d ati o n a n d t h e
N ati o n al A s s o ci ati o n of C ri mi n al D ef e n s e L a w y e r s —
e sti m at e d t h at t h e r e a r e o v e r 4, 4 5 0 f e d e r al st at ut o r y
c ri m e s a n d “ a n e sti m at e d t e n s of t h o u s a n d s m o r e i n
f e d e r al r e g ul ati o n s.” B ri a n W. W al s h a n d Tiff a n y M.
J o sl y n, Wit h o ut I nt e nt: H o w C o n g r e s s I s E r o di n g t h e
C ri mi n al I nt e nt R e q ui r e m e nt i n F e d e r al L a w , T h e
H e rit a g e F o u n d. & N at’l A s s’ n of C ri m. D ef. L a w y e r s
i x ( 2 0 1 0), htt p s://ti n y u rl. c o m/ 5f r b 6 5 m z .
T h e st u d y’ s s n a p s h ot m et h o d ol o g y f o u n d t h at, of
t h e 4 4 6 p r o p o s e d st at ut e s d u ri n g t h e 1 0 9t h C o n g r e s s,
5 7. 1 p e r c e nt e a r n e d a “ n o n e” t o “ w e a k” m e n s r e a
g r a d e. I d . at 1 2. A n d of t h e st at ut e s t h at C o n g r e s s
p a s s e d , o v e r 6 0 p e r c e nt e a r n e d t h e s a m e g r a d e. I bi d.
A n ot h e r st u d y of n e w f e d e r al c ri mi n al st at ut e s p a s s e d
i n a r e c e nt ei g ht -y e a r p e ri o d s h o w e d a b o ut o n e i n fi v e
“ di d n ot s p e cif y a m e nt al el e m e nt.” J o h n B a k e r,

30
R e vi siti n g t h e E x pl o si v e G r o wt h of F e d e r al C ri m e s ,
T he
H e rit a g e
F o u n d.
(J u ne
1 6,
2 0 0 8),
htt p s://ti n y u rl. c o m/ H e rit a g e C ri m e R e p o rt .
T h e st o r y i s e v e n w o r s e f o r st at e s. F o r e x a m pl e, a
st u d y of Mi c hi g a n ’s c ri mi n al l a w s f o u n d t h at t h e st at e
h a s at l e a st 3, 1 0 2 c ri m e s o n it s b o o k s . J a m e s R.
C o p el a n d, I s a a c G o r o d et s ki & Mi c h a el J. R eit z,
O v e r c ri mi n ali zi n g t h e W ol v e ri n e St at e, M a c ki n a c Ct r.
F o r P u b. P oli c y a n d t h e M a n h att a n I n st. F o r P u b.
P oli c y 1 (O ct . 2 0 1 4), htt p s://ti n y u rl. c o m/ c d r z x z u c .
M o r e t h a n 2 6 p e r c e nt of t h e f el o ni e s “ d o n ot e x pli citl y
r e q ui r e t h e st at e t o m a k e a s h o wi n g of i nt e nt.” I bi d.
T h e p r o bl e m i s n ot i s ol at e d t o Mi c hi g a n. A c c o r di n g t o
a 2 0 1 2 fift y -st at e s u r v e y, t e n st at e s h a v e o nl y v a r yi n g
l e v el s of p r e s u m pti o n s i n f a v o r of a s ci e nt e r el e m e nt,
a n d t w e nt y st at e s c o m pl et el y l a c k a d ef a ult m e n s r e a
r e q ui r e m e nt. B a k e r, M e n s R e a a n d St at e C ri m e s at 6 7,
7 8; s e e g e n e r all y J a m e s R. C o p el a n d & R af a el A.
M a n g u al,
O v e r c ri mi n ali zi n g A m e ri c a , M a n h att a n
I n st. 8 ( A u g. 2 0 1 8), htt p s://ti n y u rl. c o m/ 4 a x zj 5 6 m
(“S t at e l a w m a k e r s h a v e oft e n f ail e d t o s p e cif y a n y
i nt e nt r e q ui r e m e nt s i n t h e c ri m e s t hat h a v e b e e n
a d d e d t o st at ut o r y c o d e s i n r e c e nt y e a r s ”).
2. T h e n u m b e r of st at ut e s l a c ki n g a s ci e nt e r
r e q ui r e m e nt h a s al s o g r o w n e x p o n e nti all y i n r e c e nt
y e a r s. A m e ri c a’ s fi r st f e d e r al c ri mi n al l a w , i n 1 7 9 0,
li st e d l e s s t h a n 2 0 off e n s e s. G a r y Fi el d s a n d J o h n R.
E m s h w ill e r, A s F e d e r al C ri m e Li st G r o w s, T h r e s h ol d
of G uilt D e cli n e s , W all St . J . ( S e pt. 2 7, 2 0 1 1),
htt p s://ti n y u rl. c o m/ 2 s k c r e y s . P r ofe s s o r B a k e r e x pl ai n s
t h at, p ri o r t o 1 9 7 0, “f e d e r al c ri mi n al l a w pl a y e d a
r el ati v el y mi n o r r ol e i n t h e o v e r all pi ct u r e of c ri mi n al
l a w i n t h e U nit e d St at e s.” B a k e r, M e n s R e a a n d St at e

31
C ri m e s , at 4. P r of e s s o r St e p h e n S alt z b u r g , i n hi s 2 0 1 6
c o n g r e s si o n al t e sti m o n y b ef o r e t h e S e n at e J u di ci a r y
C o m mitt e e , n ot e d of f e d e r al c ri mi n al l a w t h at “[ m] o r e
t h a n 4 0 % of t h e f e d e r al p r o vi si o n s e n a ct e d aft e r t h e
Ci vil W a r h a d b e e n e n a ct e d si n c e 1 9 7 0.”
T he
A d e q u a c y of C ri mi n al I nt e nt St a n d a r d s i n F e d e r al
P r o s e c uti o n s B ef o r e t h e S. C o m m. o n t h e J u di ci a r y,
1 1 4 t h C o n g. 1 ( 2 0 1 6) ( st at e m e nt of St e p h e n A.
S alt z b u r g, C u r r e nt M e m b e r a n d P a st C h ai r, C o u n cil
of t h e A m e ri c a n B a r A s s o ci ati o n’ s C ri mi n al J u sti c e
S e cti o n). Si n c e 1 9 8 0, C o n g r e s s h a s a d d e d o v e r 5 0 0
n e w c ri m e s p e r d e c a d e. W al s h & J o sl y n , s u p r a at 6.
T h e m at h p ai nt s a di s q ui eti n g pi ct u r e if pi e c e d
t o g et h e r wit h t h e m e n s r e a g r a d e r ati o s f r o m t h e
H e rit a g e F o u n d ati o n’ s st u d y.
N ot t o b e o ut d o n e b y C o n g r e s s, st at e s a r e p r olifi c
t h e m s el v e s. B y w a y of ill u st r ati o n, u si n g a si x -y e a r
r u n ni n g a v e r a g e, t h e M a n h att a n I n stit ut e f o u n d t h at
S o ut h C a r oli n a c r e at e s 6 0 n e w c ri m e s p e r y e a r,
O kl a h o m a c r e at e s 4 6, a n d Mi c hi g a n c r e at e s 4 5.
C o p el a n d & M a n g u al , s u p r a at 7 . S o ut h C a r oli n a,
O kl a h o m a,
Mi c hi g a n,
a n d — as
m e nti o n e d
p r e vi o u sl y — s e v e nt e e n ot h e r st at e s d o n ot m ai nt ai n
a n y d ef a ult m e n s r e a st at ut e s. B a k e r, M e n s R e a a n d
St at e C ri m e s at 7 8 -7 9.
I n s h o rt, t h e p r olif e r ati o n of st at e a n d f e d e r al
f el o n y st at ut e s l a c ki n g a s ci e nt e r r e q ui r e m e nt, y et
i m p o si n g s e ri o u s p e n alti e s, h a s e x pl o d e d i n t hi s
c o u nt r y t o t h e d et ri m e nt of t h e a v e r a g e A m e ri c a n w h o
c a n n o w vi ol at e h u n d r e d s, if n ot t h o u s a n d s, of f el o n y
l a w s wit h o ut e v e n k n o wi n g s h e i s d oi n g s o. A n d t h at
t h r e at t o li b e rt y i s e x a c e r b at e d b y t h e p r a cti c e of s o m e
c o u rt s — i n cl u di n g t h e I d a h o S u p r e m e C o u rt h e r e— of

32
e v a di n g c h all e n g e s t o t h o s e ki n d s of l a w s t h r o u g h
s p u ri o u s cl ai m s of p r o c e d u r al mi s st e p s b y t h e
c h all e n g e r s.
I V. T hi s C a s e P r e s e n t s a F a c t u all y C l e a n
V e hi cl e t o R e s ol v e t h e s e I m p o r t a n t I s s u e s .
U nli k e m a n y d u e p r o c e s s c a s e s t h at i n v ol v e m e s s y
f a ct s t h at a r e filt e r e d t h r o u g h t h e t ri al c o u rt, t hi s c a s e
i s f a ct u all y cl e a n a n d si m pl e. T h e o nl y r el e v a nt f a ct
f o r t h e fi r st d u e p r o c e s s i s s u e— t h e l a c k of s ci e nt e r
r e q ui r e m e nt i n st at e f el o n y st at ut e t h at c a r ri e s
si g nifi c a nt p e n alti e s — i s t h e I d a h o S u p r e m e C o u rt ’ s
h ol di n g t h at t h e st at ut e l a c k e d m e n s r e a . B e c a u s e t hat
c o u rt’ s i nt e r p r et ati o n of I d a h o st at e l a w m a y n ot b e
di st u r b e d b y t hi s C o u rt , s e e J eff e r s o n B r a n c h B a n k v.
S k ell y , 6 6 U. S. 4 3 6, 4 4 2 ( 1 8 6 1), t h e r e a r e n o di s p ut e d
f a ct s o n t hi s fi r st i s s u e.
N o r c a n t h e r e b e a n y d o u bt t h at a s ci e nt e r
r e q ui r e m e nt w o ul d h a v e s a v e d P etiti o n e r f r o m a
f el o n y c o n vi cti o n. W hil e t h e St at e’ s e vi d e n c e s h o w e d
t h at P etiti o n e r ’ s a s s o ci at e (t h e b ut c h e r) h a d a d e a d
m o o s e o n hi s t r u c k a n d l at e r i n hi s c ol d st o r a g e l o c k e r
at hi s b ut c h e r f a cilit y, t h e St at e n e v e r i nt r o d u c e d a n y
e vi d e n c e t h at P etiti o n e r k n e w t h at hi s a s s o ci at e
l a c k e d a t a g a n d t h at t h e s e a s o n w a s cl o s e d o n t h at
d a y. T h u s , t h e r e w a s n o w a y t o c o n vi ct P etiti o n e r of
k n o wi n gl y p o s s e s si n g a m o o s e c a r c a s s u nl a wf ull y.
F u rt h e r m o r e, o nl y t h e I d a h o S u p r e m e C o u rt c a n
c h o o s e w h et h e r t o r e a d a s ci e nt e r r e q ui r e m e nt i nt o a n
I d a h o st at ut e l a c ki n g s u c h. T h u s, P etiti o n e r’ s o nl y
c h a n c e t o p r e v ail o n hi s s ci e nt e r -d u e p r o c e s s
a r g u m e nt i s f o r t hi s C o u rt t o cl a rif y t h at r at h e r t h a n
a r ul e of c o n st r u cti o n, t h e C o n stit uti o n’ s 1 4t h

33
A m e n d m e nt r e q ui r e s s ci e nt e r i n t h e f el o n y st at ut e
h e r e t h at i m p o s e s a s e ri o u s p e n alt y a n d i s n ot a p u bli c
w elf a r e off e n s e.
W h at i s m o r e, t h e I d a h o S u p r e m e C o u rt’ s d e ci si o n
d o e s n ot r e st o n i n d e p e n d e nt a n d a d e q u at e st at e
g r o u n d s. T hi s C o u rt h a s l o n g h el d t h at a st at e
p r o c e d u r al r ul e d o e s n ot p r e v e nt r e vi e w i n t hi s C ou rt
if t h e st at e r ul e o r it s a p pli c ati o n “i s a n o b vi o u s
s u bt e r f u g e t o e v a d e c o n si d e r ati o n of a f e d e r al i s s u e.”
R a di o St ati o n W O W, I n c. v. J o h n s o n, 3 2 6 U. S. 1 2 0,
1 2 9 ( 1 9 4 5) . A d diti o n all y , st at e p r o c e d u r al r ul e s a r e
i n a d e q u at e if t h e y d e n y d u e p r o c e s s— p r e ci s el y t h e
sit u ati o n h e r e. S e e, e. g. , R e e c e v. G e o r gi a, 3 5 0 U. S. 8 5
( 1 9 5 5); B ri n k e r h off -F a ri s T r u st & S a vi n g s C o. v. Hill,
2 8 1 U. S. 6 7 3, 6 8 1 -6 8 2 ( 1 9 3 0) . N eit h e r i s a st at e l a w
d e e m e d a d e q u at e w h e n t h e r e c o r d l a c k s a f ai r a n d
s u b st a nti al b a si s f o r s u p p o rti n g t h e st at e c o u rt’ s st at e
l a w r uli n g, a s i s t h e c a s e h e r e. S ee, e. g., W a r v. B d. of
C o m mi s si o n e r s of L o v e Ct y., O kl a h o m a, 2 5 3 U. S. 1 7,
2 3 ( 1 9 2 0) . W hil e t h e st at e p r o c e d u r al r ul e t h e I d a h o
S u p r e m e C o u rt a p pli e d i s a n ot f a ci all y p r o bl e m ati c,
[t]h e r e a r e * * * e x c e pti o n al c a s e s i n w hi c h e x o r bit a nt
a p pli c ati o n s of a g e n e r all y s o u n d r ul e r e n d e r s t h e
st at e g r o u n d i n a d e q u at e. ” L e e v. K e m n a, 5 3 4 U. S. 3 6 2,
3 7 6 ( 2 0 0 2) . A n d t h e I d a h o c o u rt’ s h ol di n g t h at t h e
st at e f el o n y st at ut e di d n ot h a v e a s ci e nt e r
r e q ui r e m e nt a n d t h u s t h at P etiti o n e r c o ul d b e
c o n vi ct e d wit h o ut s u c h a s h o wi n g c a n n ot st a n d if t hi s
C o u rt a d o pt s P etiti o n e r’ s d u e p r o c e s s a r g u m e nt o n
t h at i s s u e.
Fi n all y, t h e r e a r e n o di s p ut e d o r m e s s y f a ct s o n t h e
s e c o n d i s s u e. T o r e s ol v e t h at i s s u e, t h e o nl y r el e v a nt
f a ct i s t h e c o nt e nt of P etiti o n e r’ s o p e ni n g b ri ef i n t h e

34
l o w e r c o u rt. A n d t h at i s a f a ct t hi s C o u rt c a n e a sil y
a n d di r e ctl y a s s e s s.
T o b e s u r e, t hi s C o u rt o r di n a ril y l o o k s f o r c a s e s i n
w hi c h t h e l o w e r c o u rt h a s s q u a r el y d e ci d e d t h e
q u e sti o n p r e s e nt e d — w hi c h t h e I d a h o S u p r e m e C o u rt
o b vi o u sl y di d n’t d o h e r e wit h r e s p e ct t o t h e fi r st
q u e sti o n p r e s e nt e d. B ut t hi s C o u rt c a n a n d s h o ul d
c o n si d e r t h e I d a h o S u p r e m e C o u rt’ s r ef u s al t o
c o n si d e r P etiti o n e r’ s s ci e nt e r a r g u m e nt o n s p u ri o u s
g r o u n d s a s a r ej e cti o n of t h at a r g u m e nt o n t h e m e rit s.
At a mi ni m u m, t hi s C o u rt s h o ul d G V R, all o w t h e
I d a h o S u p r e m e C o u rt t o a d d r e s s t h e s ci e nt e r i s s u e i n
t h e fi r st i n st a n c e, a n d t h e n g r a nt c e rti o r a ri a g ai n if
t h at C o u rt r ej e ct s P etiti o n e r’ s s ci e nt e r a r g u m e nt o n
t h e m e rit s.
F o r all t h e s e r e a s o n s, t hi s c a s e i s a g o o d v e hi cl e i n
w hi c h t o r e s ol v e t h e q u e sti o n s p r e s e nt e d .
C O N C L U SI O N
P etiti o n e r i s a c o n vi ct e d f el o n d e s pit e n u m e r o u s
d u e p r o c e s s vi ol ati o n s m a d e b y t h e st at e c o u rt s
b el o w — vi ol ati o n s t h at
b ut f o r t hi s
C o u rt’ s
i nt e r v e nti o n will r e m ai n i n f o r c e f o r hi m a n d t h o s e i n
si mil a r ci r c u m st a n c e s. Gi v e n t h e p r olif e r ati o n of st at e
a n d f e d e r al f el o ni e s wit h s e ri o u s p e n alti e s t h at
“g r a v el y b e s mi r c h ” t h e c h a r a ct e r of t h o s e c o n vi ct e d of
s u c h, a n d gi v e n t h e l o w e r c o u rt’ s c o nf u si o n o v e r
w h et h e r s u c h c ri m e s t ri g g e r c o n stit uti o n al d u e
p r o c e s s p r ot e cti o n, cl a rit y f r o m t hi s C o u rt i s b a dl y
n e e d e d. T h e C o u rt s h o ul d g r a nt t h e p etiti o n a n d h e a r
t hi s c a s e o n t h e m e rit s o r, alt e r n ati v el y, G V R .

35
R e s p e ctf ull y s u b mitt e d,
G

E N E C. S C H A E R R
C o u n s el of R e c o r d
H. C H R I S T O P H E R B A R T O L O M U
H A N N A H S MI T H
S C O T T D. G O O D W I N
R I D D HI D A S G U P T A
J O S H U A J. P R I N C E
SC H A E R R | JAFF E LLP
1 7 1 7 K St r e et N W, S t. 9 0 0
W a s hi n gt o n, D C 2 0 0 0 6
( 2 0 2) 7 8 7-1 0 6 0
g s c h a e r r @ s c h a e r r -j aff e. c o m

J ul y 6 , 2 0 2 1

C CI

